<html>
<title> - BAN ASBESTOS NOW: TAKING ACTION TO SAVE LIVES AND LIVELIHOODS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
     BAN ASBESTOS NOW: TAKING ACTION TO SAVE LIVES AND LIVELIHOODS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON ENVIRONMENT AND CLIMATE CHANGE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________

                           Serial No. 116-30
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           
                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                        
                        
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-222 PDF            WASHINGTON : 2021                         
                        
                        

                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Environment and Climate Change

                          PAUL TONKO, New York
                                 Chairman
YVETTE D. CLARKE, New York           JOHN SHIMKUS, Illinois
SCOTT H. PETERS, California            Ranking Member
NANETTE DIAZ BARRAGAN, California    CATHY McMORRIS RODGERS, Washington
A. DONALD McEACHIN, Virginia         DAVID B. McKINLEY, West Virginia
LISA BLUNT ROCHESTER, Delaware       BILL JOHNSON, Ohio
DARREN SOTO, Florida                 BILLY LONG, Missouri
DIANA DeGETTE, Colorado              BILL FLORES, Texas
JAN SCHAKOWSKY, Illinois             MARKWAYNE MULLIN, Oklahoma
DORIS O. MATSUI, California          EARL L. ``BUDDY'' CARTER, Georgia
JERRY McNERNEY, California           JEFF DUNCAN, South Carolina
RAUL RUIZ, California, Vice Chair    GREG WALDEN, Oregon (ex officio)
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    11

                               Witnesses

Alexandra D. Dunn, the Assistant Administrator, Office of 
  Chemical Safety and Pollution Prevention, United States 
  Environmental Protection Agency................................    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   167
Linda Reinstein, Co-Founder, Asbestos Disease Awareness 
  Organization...................................................    47
    Prepared statement...........................................    49
Rebecca L. Reindel, MS, MPH, Senior Safety and Health Specialist, 
  American Federal of Labor and Congress of Industrial 
  Organizations..................................................    69
    Prepared statement...........................................    71
Michael P. Walls, Vice President, Regulatory and Technical 
  Affairs, American Chemistry Council............................    79
    Prepared statement...........................................    81
    Answers to submitted questions...............................   174
Celeste Monforton, DrPh, MPH, Lecturer, Texas State University...    84
    Prepared statement...........................................    86

                           Submitted Material

H.R. 1603, Alan Reinstein Ban Asbestos Now Act of 2019, submitted 
  by Mr. Tonko...................................................   102
Statement on ``Ban Asbestos Now: Taking Action to Save Livelihood 
  and Lives," May 8, 2019, by Rep. Suzanne Bonamici, submitted by 
  Mr. Tonko......................................................   116
Letter of May, 7, 2019, from Harold A. Schaitberger, General 
  President, International Association of Fire Fighters to Mr. 
  Tonko and Mr. Shimkus, submitted by Mr. Tonko..................   117
Article of May 8, 2019, ``E.P.A. Leader Disregarded Agency's 
  Issuing Asbestos Rule, Memos Show," The New York Times, by Lisa 
  Friedman, submitted by Mr. Tonko...............................   118
Article of August 10, 2018, ``E.P.A. Staff Objected to Agency's 
  New Rule on Asbestos Use, Internal Emails Show," The New York 
  Times, by Lisa Friedman, submitted by Mr. Tonko................   121
Letter of May 7, 2019, from James W. Tobin III, Executive Vice 
  President and Chief Lobbyist, National Association of Home 
  Builders, to Mr. Tonko and Mr. Shimkus, submitted by Mr. Tonko.   125
Letter of May 7, 2019, from Robyn Brooks, Vice President, Health, 
  Environment, Safety and Security, The Chlorine Institute, to 
  Mr. Pallone, et al., submitted by Mr. Tonko....................   126
Letter of March 7, 2019, from American Alliance for Innovation, 
  by American Chemistry Council, et al., to Hon. John Barrasso, 
  et al., submitted by Mr. Tonko.................................   158
Statement of National Rural Water Association, May 7, 2019, 
  submitted by Mr. Tonko.........................................   160
Letter of May 8, 2019, from Jeff Lambert, Chief Executive 
  Officer, National Demolition Association, to Mr. Tonko and Mr. 
  Shimkus, submitted by Mr. Tonko................................   162
Letter of May 8, 2019, from G. Tracy Mehan, III, Executive 
  Director, Government Affairs, American Water Works Association, 
  to Mr. Pallone, et al., submitted by Mr. Tonko.................   164


     BAN ASBESTOS NOW: TAKING ACTION TO SAVE LIVES AND LIVELIHOODS

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                  House of Representatives,
    Subcommittee on Environment and Climate Change,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2322 Rayburn House Office Building, Hon. Paul Tonko 
(chairman of the subcommittee) presiding.
    Members present: Representatives Tonko, Peters, McEachin, 
Blunt Rochester, Soto, Matsui, McNerney, Ruiz, Dingell, Pallone 
(ex officio), Shimkus (subcommittee ranking member), Rodgers, 
McKinley, Johnson, Long, Mullin, Carter, Duncan, and Walden (ex 
officio).
    Staff present: Jacqueline Cohen, Chief Environment Counsel; 
Adam Fischer, Policy Analyst; Waverly Gordon, Deputy Chief 
Counsel; Rick Kessler, Senior Advisor and Staff Director, 
Energy and Environment; Brendan Larkin, Policy Coordinator; Mel 
Peffers, Environment Fellow; Teresa Williams, Energy Fellow; 
Mike Bloomquist, Minority Staff Director; Jerry Couri, Minority 
Deputy Chief Counsel, Environment & Climate Change; Margaret 
Tucker Fogarty, Minority Staff Assistant; Theresa Gambo, 
Minority Human Resources/Office Administrator; Peter Kielty, 
Minority General Counsel; Ryan Long, Minority Deputy Staff 
Director; Mary Martin, Minority Chief Counsel, Energy & 
Environment & Climate Change; Brandon Mooney, Minority Deputy 
Chief Counsel, Energy; and Brannon Rains, Minority Staff 
Assistant.
    Mr. Tonko. The subcommittee on Environment and Climate 
Change will now come to order. I recognize myself for 5 minutes 
for the purposes of an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Today's legislative hearing will examine H.R. 1603, the 
Alan Reinstein Ban Asbestos Now Act of 2019.
    And I would like to start by recognizing Linda Reinstein, 
Alan's widow, and their daughter Emily, who are with us today. 
Thank you for joining us; and heartfelt thanks for being able 
to carry forward in a really constructive way to--respond to a 
really difficult time for you.
    I have worked with Linda for a number of years on chemical 
safety efforts. She is a tireless champion for countless 
Americans suffering from asbestos-related diseases and fighting 
for a TSCA program that actually works to protect people from 
toxic risks.
    Linda is a powerful voice for the millions of Americans who 
get up every morning and go to work, and raise their families; 
who have done everything right, but who are now facing the 
painful consequences of some ill-fated toxic exposure they may 
not even understand; and from a Federal Government that has, 
for far too long, failed to take these risks seriously enough.
    As a result, today asbestos can be found in countless 
consumer products, despite our knowing for decades that it is 
indeed harmful to human health. The dangers of asbestos are not 
new to anyone. We know the carcinogenic effects of exposure and 
that asbestos-related diseases kill tens of thousands of 
Americans each year.
    I am so proud to be holding this hearing today, and I hope 
we are able to move forward on behalf of all the people-the 
victims and their families-that Linda is here to help 
represent. I look forward to hearing from her on today's second 
panel, along with our other witnesses.
    The Alan Reinstein Ban Asbestos New Act was introduced by 
Congresswoman Bonamici, Congresswoman Slotkin, and Congress--
and Chairman Pallone earlier this year. The subcommittee thanks 
them for their urgent and timely work.
    This legislation would prohibit the manufacture, the 
processing, and distribution of asbestos and asbestos-
containing mixtures and articles one year after its enactment. 
It allows for a limited exemption for national security 
purposes and requires a report to Congress on legacy uses; for 
example, asbestos already in buildings.
    In March, this subcommittee heard from workers representing 
firefighters, teachers, autoworkers and others who have seen 
the consequences of long-term health impacts of workplace 
exposures. More than 60 countries have moved forward with 
asbestos bans to date. For the sake of our consumers and our 
loved ones, the United States must do the same. In fact, we 
have tried to do so in the past.
    Thirty years ago, EPA attempted such a ban, which was 
overturned by the courts in 1991. It was the most glaring 
example of the inadequacy of our nation's Toxic Substances 
Control Act, and one of the reasons Congress advanced the 
Lautenberg Act to reform TSCA. My Republican counterpart Mr. 
Shimkus was the leader on that effort and, to his credit, 
worked to find compromise and give EPA the authorities 
necessary to protect Americans from toxic threats.
    Based on the available public health and scientific data, 
and the heartbreaking experience of Linda's family and hundreds 
of thousands of others like her, that means stopping asbestos 
use once and for all.
    This morning, I suspect we will hear that EPA already has a 
process under way. Asbestos was selected as one of the first 
ten chemicals for consideration under the Lautenberg Act, and 
the Agency recently issued an SNUR requiring notification if 
previous uses are reintroduced into commerce.
    Unfortunately, that is not good enough. I am sure other 
members will discuss concerns with the asbestos risk 
evaluation. But between that and the Agency's treatment of 
methylene chloride, I have little confidence that EPA will move 
forward on a reasonable timeline with the only acceptable 
outcome-a complete asbestos ban. We are approaching three years 
since the enactment of the Lautenberg Act, and it is likely a 
ban; if proposed at all, and will take many years to finalize.
    Congress came together to give EPA additional authorities 
precisely so that substances such as asbestos, that are nearly 
universally agreed to present an unreasonable risk, could be 
properly regulated. The bill's supporters are right to think 
that if this is the direction that EPA claims to be heading, we 
can ensure a ban moves forward with confidence on a certain 
timeline.
    I hope that members on both sides of the aisle will 
consider how we might be able to come together, build upon the 
bipartisan success of the Lautenberg Act, and help protect 
Americans from preventable asbestos-related diseases.
    Thank you again to Assistant Administrator Dunn and our 
other witnesses for being here this morning. I look forward to 
the discussion.
    I will now recognize myself, and share my remaining time 
with Representative McNerney of California.
    Mr. McNerney. I thank the chair for giving me a minute 
here. What I would like to do is recognize a member of the 
audience here.
    Lina Caboteja, would you please stand. Lina is a Tuesday's 
Child and she will be shadowing me today. And I just want to 
make sure she has a great experience here on the Hill. Thanks 
for coming, Lina.
    [Applause.]
    [The prepared statement of Mr. Tonko follows:]

                 Prepared Statement of Hon. Paul Tonko

    Today's legislative hearing will examine H.R. 1603, the 
Alan Reinstein Ban Asbestos Now Act of 2019.
    And I would like to start by recognizing Linda Reinstein, 
Alan's widow, and their daughter Emily, who are with us today.
    I have worked with Linda for a number of years on chemical 
safety efforts. She is a tireless champion for countless 
Americans suffering from asbestos-related diseases and fighting 
for a TSCA program that actually works to protect people from 
toxic risks.
    Linda is a powerful voice for the millions of Americans who 
get up every morning and go to work, and raise their families; 
who have done everything right, but who are now facing the 
painful consequences of some ill-fated toxic exposure they may 
not even understand, and from a federal government that has, 
for far too long, failed to take these risks seriously enough.
    As a result, today asbestos can be found in countless 
consumer products, despite our knowing for decades that it is 
harmful to human health. The dangers of asbestos are not new to 
anyone. We know the carcinogenic effects of exposure and that 
asbestos-related diseases kill tens of thousands of Americans 
each year.
    I am so proud to be holding this hearing today, and I hope 
we are able to move forward on behalf of all the people- the 
victims and their families- that Linda is here to help 
represent.
    I look forward to hearing from her on today's second panel 
along with our other witnesses.
    The Alan Reinstein Ban Asbestos Now Act was introduced by 
Congresswoman Bonamici, Congresswoman Slotkin, and Chairman 
Pallone earlier this year. The subcommittee thanks them for 
their urgent and timely work.
    This legislation would prohibit the manufacture, 
processing, and distribution of asbestos and asbestos-
containing mixtures and articles one year after its enactment. 
It allows for a limited exemption for national security 
purposes and requires a report to Congress on legacy uses- for 
example, asbestos already in buildings.
    In March, this Subcommittee heard from workers, 
representing firefighters, teachers, autoworkers and others who 
have seen the consequences of long-term health impacts of 
workplace exposure.
    More than 60 countries have moved forward with asbestos 
bans to date. For the sake of our consumers and our loved ones, 
the United States must do the same-in fact we have tried to do 
in the past.
    Thirty years ago, EPA attempted such a ban, which was 
overturned by the courts in 1991.
    It was the most glaring example of the inadequacy of our 
nation's Toxic Substances Control Act, and one of the reasons 
Congress advanced the Lautenberg Act to reform TSCA. My 
Republican counterpart Mr. Shimkus was the leader on that 
effort and, to his credit, worked to find compromise and give 
EPA the authorities necessary to better protect Americans from 
toxic threats.
    Based on the available public health and scientific data, 
and the heartbreaking experience of Linda's family and hundreds 
of thousands of others like her, that means stopping asbestos 
use once and for all.
    This morning I suspect we will hear that EPA already has a 
process under way.
    Asbestos was selected as one of the first ten chemicals for 
consideration under the Lautenberg Act, and the Agency recently 
issued a SNUR requiring notification if previous uses are 
reintroduced into commerce.
    Unfortunately, that is not good enough. I am sure other 
Members will discuss concerns with the asbestos risk 
evaluation. But between that and the Agency's treatment of 
methylene chloride, I have little confidence that EPA will move 
forward on a reasonable timeline with the only acceptable 
outcome: a complete asbestos ban.
    We are approaching three years since the enactment of the 
Lautenberg Act, and it is likely a ban--if proposed at all- 
will take many years to finalize.
    Congress came together to give EPA additional authorities 
precisely so that substances such as asbestos that are nearly 
universally agreed to present an unreasonable risk could be 
properly regulated.
    The bill's supporters are right to think that, if this is 
the direction EPA claims to be heading, we can ensure a ban 
moves forward with confidence on a certain timeline.
    I hope that Members on both sides of the aisle will 
consider how we might be able to come together, build upon the 
bipartisan success of the Lautenberg Act, and help protect 
Americans from preventable asbestos-related diseases. Thank you 
again to Assistant Administrator Dunn and our other witnesses 
for being here this morning. I look forward to the discussion.
    Mr. Tonko. I yield back.

    Mr. Tonko. I now recognize Mr. Shimkus, our leading 
Republican for the Subcommittee on Environment and Climate 
Change for 5 minutes for his opening statement. Representative.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman and, Mr. McNerney, you 
are such a nice guy, so.
    The issue of asbestos use in America and its impact on lung 
cancer, other illnesses, and death is one of the more 
challenging and gut-wrenching I have found in my time in 
Congress. I have the privilege to represent part of Madison 
County, Illinois. And that is my home county. So I know a thing 
or two about asbestos and the disease it causes.
    In 2014, 1,500 asbestos lawsuits were filed in Madison 
County, or more than a quarter of all asbestos cases filed 
nationally. When I have gone door to door to visit my 
constituents, I see them in their oxygen machines laboring to 
live. And I am aware of the struggle, and it is real.
    Preventing asbestos-related diseases is one of the main 
reasons I and others came together to enact reform to the Toxic 
Substances Control Act. This law directed EPA, using high-
quality science, to identify high risk chemicals and prioritize 
them, review those chemicals and the risk, otherwise known as a 
moment where hazard and exposure intersect, and regulate the 
ones that present an unreasonable risk to health or the 
environment.
    I felt good that we had enacted a process that was 
objective, and risk and science-based, that was drafted to be 
agnostic as to who was implementing it; and the EPA would have 
little trouble using very broad authority to carry out the 
requirements.
    We didn't single out any chemical by name in that bill, 
including the use of the word ``asbestos,'' but we were all 
conscious of ensuring that EPA could act on it. And I and 
others expect that EPA is doing just that; for the first time 
ever preventing lapsed asbestos uses from coming back into the 
market, and reassessing current uses concerning their 
unreasonable risk, and preparing to take any necessary action 
to reduce and remove those risks.
    I know, Mr. Chairman, that moving the TSCA bill was a tough 
process, which you were involved with and had concerns with the 
preemptive provisions. But this is precisely what the majority 
of both Democrats and Republicans on this committee supported 
on the House floor.
    I guess I am trying to say that I am a bit frustrated as to 
why we are having a legislative hearing on banning asbestos 
before we have had an oversight hearing to demonstrate that the 
EPA is failing on the technical aspects of the law in its 
review, missing deadlines, or some other such failing. I know 
my friend and full committee chairman, Chairman Frank Pallone, 
has on more than one occasion proclaimed he does not have faith 
in the professionals at EPA to carry out high-quality review 
and act the way he would prefer on asbestos.
    I would respond in two ways.
    First, under TSCA, EPA has a legal duty to support any 
decision on existing uses of asbestos, with substantial 
evidence based on objective scientific review. So, EPA cannot 
go into a chemical review with a predetermined outcome if it 
wants to avoid litigation.
    Let me say that again, because EPA cannot go into a 
chemical review with a predetermined outcome if it wants to 
avoid litigation.
    Second, let's be honest here, if there were a Democrat in 
the White House right now, my Democrat colleagues would be very 
critical of me trying to overturn one of the first existing 
chemical reviews less than three years after its enactment. 
That is why I have sympathy for at least letting EPA do its 
work before legislatively rejecting it. I understand the 
proponents want certainty on this issue. I am also sympathetic 
to those concerns.
    Because of the nature of this place, and unlike EPA, we are 
much less likely to have the time to consider or otherwise be 
able to know all the impacts a ban would have directly or 
indirectly on all Americans, particularly without the benefit 
of an oversight hearing.
    Multiple Super Bowl champ, champion coach Bill Belichick 
preaches to his players ``trust the process'' when preparing 
for challenges for a season. This formula has been successful 
for him. And I do believe it would be successful in TSCA.
    There may be more of a need to move a bill to address the 
manufacturing, import, processing, and commercial distribution 
of asbestos; but before learning more, though, I am not 
convinced that that time is now.
    I join the chairman in welcoming our witnesses today. I 
want to thank them for their sacrifice they made to be here 
with us. And I look forward to learning more from you all.
    And with that, Mr. Chairman, I yield back my time.
    Thank you, Mr. Chairman for yielding me this time.
    [The prepared statement of Mr. Shimkus follow:]

                Prepared Statement of Hon. John Shimkus

    The issue of asbestos use in America and its impacts on 
lung cancer, other illnesses, and death is one of the more 
challenging and gut wrenching I have found in my time in the 
Congress.
    I have the privilege to represent Madison County, Illinois 
here in Congress--so I know a thing or two about asbestos and 
the disease is causes. In 2014, 1,500 asbestos lawsuits were 
filed in Madison County--or more than a quarter of all asbestos 
cases filed nationally. When I have gone door-to-door to visit 
my constituents, I see them and their oxygen machines, laboring 
to live.
    I am aware of the struggle and it is real.
    Preventing asbestos-related disease is one of the main 
reasons I and others came together to enact reforms to the 
Toxic Substances Control Act that I introduced. This law 
directed EPA, using high quality science, to identify high risk 
chemicals and prioritize them, review those chemicals and the 
risks (otherwise known as the moment where hazard and exposure 
intersect), and regulate the ones that present an unreasonable 
risk to health or the environment.
    I felt good that we had enacted a process that was 
objective and risk and science-based, that was drafted to be 
agnostic as to who was implementing it, and that EPA would have 
little trouble using very broad authority to carry out these 
requirements.
    We didn't single out any chemical by name in that bill, 
including the use of the word `asbestos', but we were all 
conscious of ensuring that EPA could act on it. And, as I and 
others expected, EPA is doing just that: for the first time 
ever, preventing lapsed asbestos uses from coming back onto the 
market and reassessing current uses concerning their 
unreasonable risk and preparing to take any necessary action to 
reduce and remove those risks.
    I know, Mr. Chairman that you didn't vote for the final 
product because you were concerned about its pre-emption 
provisions, but this is precisely what the majority of 
Democrats and Republicans on this Committee supported on the 
House floor.
    I guess I am trying to say that I am a bit frustrated as to 
why we are having a legislative hearing on banning asbestos 
before we have had an oversight hearing to demonstrate that EPA 
is failing on the technical aspects of the law in its 
review,missing its deadlines, or some other such failing.
    I know my friend and our full committee chairman, Frank 
Pallone, has on more than one occasion proclaimed he does not 
have faith in the professionals at EPA to carry out a high-
quality review and act the way he would prefer on asbestos.
    I would respond in two ways: first, under TSCA, EPA has a 
legal duty to support any decision on existing uses of asbestos 
with substantial evidence based on objective scientific 
review--so EPA cannot go into a chemical review with a 
predetermined outcome if it wants to avoid litigation. Second, 
and let's be honest here, if there were a Democrat in the White 
House right now, my Democrat colleagues would be critical of me 
trying to overturn one of the first existing chemical reviews, 
less than 3 years after enactment.
    This is why I have sympathy for at least letting EPA do its 
work before legislatively rejecting it.
    I understand the proponents want certainty on this issue. I 
am also sympathetic to those concerns.
    Because of the nature of this place and unlike EPA, we are 
much less likely to have the time to consider or otherwise be 
able to know all the impacts a ban would have directly or 
indirectly on all Americans -- particularly without the benefit 
of an oversight hearing.
    Multiple Super Bowl Champion coach, Bill Belichick, 
preaches to his players to "trust the process" when preparing 
for challenges of a season. This formula has been successful.
    There may be a need to move a bill to address the 
manufacturing, import, processing and commercial distribution 
of asbestos. Before learning more, though, I am not convinced 
that that time is now.
    I join the Chairman in welcoming our witnesses today and I 
want to thank them for the sacrifices they made to be here with 
us. I look forward to learning for you.
    I yield back the balance of my time.

    Mr. Tonko. The gentleman yields back and now I recognize 
Mr. Pallone, Chairman of the Full Committee, for 5 minutes for 
his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Tonko.
    It has been 40 years since the Environmental Protection 
Agency began its work to ban asbestos under the Toxic 
Substances Control Act, or TSCA. It has been 30 years since EPA 
finalized that ban. And it has been 28 years since that ban was 
struck down in court.
    Twenty-eight years of frustration, of sickness and loss. We 
have known the dangers of asbestos for decades and, frankly, 
enough is enough.
    I wish today's hearing wasn't necessary, that this bill 
wasn't necessary, but asbestos is still being imported into the 
United States, and it is still being used in this country, and 
it is still killing about 40,000 Americans every year.
    Today this committee is beginning to take action by 
discussing H.R. 1603, the Alan Reinstein Ban Asbestos Now Act, 
which Representatives Bonamici, Slotkin, and I introduced in 
March. Our bill would ban the manufacture, import, processing, 
and distribution of asbestos. It would also require the EPA to 
assess and report on the risks posed by ``legacy asbestos'' 
that is found in buildings.
    In addition to Representatives Bonamici and Slotkin, I want 
to thank some of those who have worked tirelessly to get us to 
this point.
    Linda Reinstein, whose husband Alan is the bill's namesake, 
will testify this morning. Linda, thank you for everything you 
have done and everything that I know you will continue to do to 
get asbestos out of commerce, out of our products, out of our 
workplaces, out of our homes.
    I would also like to thank national and local labor unions 
who have been fighting for decades to protect workers from 
asbestos diseases.
    AFL-CIO is also here today. In March, we heard from the 
International Association of Firefighters, the United 
Autoworkers, and the American Federation of Teachers who all 
testified before this committee about the risks that workers 
continue to face from asbestos. Those stories and those people 
at risk are why we are here today.
    I also want to acknowledge Susan Moran, who is in the 
audience today. Susan's late husband, Andy, pronounced 
``egregious,'' was an integral part of this committee's work to 
reform TSCA.
    And, finally, I would like to thank the subcommittee 
ranking member, Mr. Shimkus, who worked closely with me and 
Chairman Tonko and other committee members to reform TSCA back 
in 2016. It was not an easy task.
    The Frank R. Lautenberg Chemical Safety Act for the 21st 
Century, and that is TSCA, empowered EPA to ban asbestos. In 
fact, this committee's report on the Lautenberg Act, written 
under Republican leadership, states, and I am now quoting, ``To 
many members of the committee, an important measure of TSCA 
reform proposals has been whether the proposal would enable EPA 
to take broader regulatory action to protect against 
unreasonable risks from asbestos. The committee expects this 
legislation to enable that regulatory action.''
    And that was from the committee's report on our 
expectations.
    But, unfortunately, it is now clear that, despite the best 
efforts of our committee, the Trump EPA is not using the tools 
we gave it to regulate dangerous chemicals. Asbestos is the 
poster child for the problems we are seeing in the 
implementation of the Lautenberg Act. EPA's actions under the 
Lautenberg Act have been so legally suspect that I believe we 
need to pass this bill regardless of whether EPA were to 
announce that it is moving forward with a full ban of asbestos. 
We don't have time for more legal maneuvering and a drawn-out 
court battle while tens of thousands of people are dying.
    So, it is deeply disappointing that 40 years after EPA 
began work to ban asbestos under TSCA, and three years after we 
passed the Lautenberg Act to reform that statute, we need to 
pass another law to ban this deadly substance. But I think it 
is clear that Congress must act; and we are certainly going to 
act.
    So, with that, unless anybody else wants my minute, I will 
yield back. And thank you, Mr. Chairman.
    Mr. Tonko. You are welcome.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    It has been 40 years since the Environmental Protection 
Agency (EPA) began its work to ban asbestos under the Toxic 
Substances Control Act (TSCA). It has been 30 years since EPA 
finalized that ban. And, it has been 28 years since that ban 
was struck down in court. Twenty-eight years of frustration, of 
sickness, and loss. We have known the dangers of asbestos for 
decades. Enough is enough.
    I wish today's hearing wasn't necessary--that this bill 
wasn't necessary. But, asbestos is still being imported into 
the United States, it is still being used in this country, and 
it is still killing about 40,000 Americans every year.
    Today this Committee is beginning to take action by 
discussing H.R. 1603, the Alan Reinstein Ban Asbestos Now Act, 
which Reps. Bonamici, Slotkin and I introduced in March. Our 
bill would ban the manufacture, import, processing, and 
distribution of asbestos. It would also require the EPA to 
assess and report on the risks posed by "legacy asbestos" that 
is found in buildings.
    In addition to Reps. Bonamici and Slotkin, I want to thank 
some of those who have worked tirelessly to get us to this 
point.
    Linda Reinstein, whose husband Alan is the bill's namesake, 
will testify this morning. Linda, thank you for everything you 
have done and everything that I know you will continue to do 
get asbestos out of commerce, out of our products, out of our 
workplaces, and out of our homes.
    I would also like to thank national and local labor unions 
who have been fighting for decades to protect workers from 
asbestos diseases. AFL-CIO is also here today. In March, we 
heard from the International Association of Firefighters, the 
United Autoworkers, and the American Federation of Teachers who 
all testified before this Committee about the risks their 
workers continue to face from asbestos. Those stories, and 
those people at risk, are why we are here.
    I also want to acknowledge Susan Moran, who is in the 
audience today. Susan's late husband, Andy Igrejas 
(pronounced--EGREGIOUS), was an integral part of this 
Committee's work to reform TSCA.
    And, finally I would like to thank Subcommittee Ranking 
Member Mr. Shimkus, who worked closely with me, Chairman Tonko 
and other Committee members to reform TSCA back in 2016.
    The Frank R. Lautenberg Chemical Safety Act for the 21st 
Century empowered EPA to ban asbestos. In fact, this 
Committee's report on the Lautenberg Act, written under 
Republican leadership, states, and I'm quoting now:
    "To many members of the Committee, an important measure of 
TSCA reform proposals has been whether the proposal would 
enable EPA to take broader regulatory action to protect against 
unreasonable risks from asbestos. The Committee expects this 
legislation to enable that regulatory action."
    That was from the Committee report on our expectations.
    Unfortunately, it is now clear that, despite the best 
efforts of our Committee, the Trump EPA is not using the tools 
we gave it to regulate dangerous chemicals. Asbestos is the 
poster-child for the problems we are seeing in the 
implementation of the Lautenberg Act.
    EPA's actions under the Lautenberg Act have been so legally 
suspect that I believe we need to pass this bill regardless of 
whether EPA were to announce that it is moving forward with a 
full ban of asbestos. We don't have time for more legal 
maneuvering and a drawn-out court battle while tens of 
thousands of people are dying.
    It is deeply disappointing that 40 years after EPA began 
work to ban asbestos under TSCA and three years after we passed 
the Lautenberg Act to reform that statute--we need to pass 
another law to ban this deadly substance. But it is clear that 
Congress must act, and so we will.
    Thank you, I yield back.

    Mr. Tonko. The gentleman yields back, and now I recognize 
Mr. Walden, who is the Republican leader of the full committee, 
for 5 minutes for his opening statement. Representative.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chairman, and thank you.
    As we examine the bill today from Ms. Bonamici and others, 
I must say I am actually of several minds. And let me explain.
    At a 50,000-foot level I join my colleagues in wanting an 
end to mesothelioma, cancer, and other pulmonary diseases 
precipitated by asbestos. I think we all want that.
    To the families suffering and those with these diseases 
right now, and those who have lost loved ones to them; I am 
deeply sympathetic to you and, obviously, to the advocates of 
this bill. I recognize the tragedies you have faced, and I 
understand you want a solution once and for all.
    I also appreciate the way my colleague Mr. Shimkus has said 
about the process he authored a few years ago to modernize the 
law, to address questions of safety about chemicals, and that 
these have to be fact-based decisions. And as we speak--and 
that Ms. Dunn will talk about on the first panel today, if 
Congress is going to consistently, though, preempt the sort of 
science-based EPA reviews of statutory mandates, one has to ask 
the question then what is the point of all these new and 
expanded authorities under TSCA? Even well-meaning legislation 
can, frankly, be a bit of a blunt instrument for problem 
solving where, if not careful, Congress can create risk 
tradeoffs that spawn unintended public health risks, institute 
unimplementable enforcement requirements, or require complex 
and hard-to-meet compliance obligations.
    So, as I went through and looked at this legislation a 
number of questions came to mind.
    This legislation requires any mixture or article that is 
distributed in commerce to not have asbestos present as an 
impurity. So, my question is: Does this apply to incidental 
fibers? Do American businesses have to test and certify every 
product sold in this country to guarantee it does not contain 
any asbestos, regardless of whether it was intentionally added? 
Do people in rural areas no longer get to use gravel for roads? 
Should talcum powder fall under this or would it be exempted as 
an FDA-regulated product?
    These are just some of the questions that come to mind.
    The legislation also requires very specific and complex 
reporting to the EPA by those who either manufactured, 
imported, processed, or moved in commerce asbestos, or 
mixtures, or articles containing asbestos, including an 
incidental amount in the three years prior to and one year 
after the bill's enactment. So, prior to and one year after.
    So, how does a person report an incidental amount when they 
weren't expected to track it?
    What is the utility of all this reporting to EPA on top of 
information from the EPA's chemical data reporting, especially 
if the substance is already banned?
    Why is personally identifying information disclosed to the 
public? We are doing a lot on privacy in this committee. So the 
question: Why is personally identifying information disclosed 
to the public from each report, when EPA is only required to 
produce an aggregate report that isn't specific to each person 
reporting?
    Finally, the legislation provides a shorter transition 
period and moots existing TSCA provisions preempting an 
exemption for use of a chemical that provides greater health 
protection than its alternative; which I think is a pretty 
important point.
    I am especially concerned about the immediate loss of 36 
percent, and that is over one-third, of our nation's chlorine 
production, and what that means for hospital disinfection, 
drinking water treatment, pharmaceutical production and the 
like; the resources required to push businesses to import 
materials rather than make them here; and do healthcare costs 
and drinking water rates spike as availability of these 
services lessen, or do gaseous chlorine shipments come to our 
major ports.
    So, to protect the economic health of working men and 
women, are alternatives technologically and economically 
feasible? I think that is a question we need to look at; and, 
if so, are they drop-in ready and safer?
    So, Mr. Chairman, while I support the intent, certainly, of 
my colleague from Oregon, Ms. Bonamici, and others, I do think 
there are these questions among the whole list that if we are 
going to legislate in this space, we need to get answers to-if 
we are going to be responsible.
    So, I look forward to hearing from each of our witnesses 
today. I know their testimony will better clarify some of these 
for me, and I appreciate that. I would also say at the outset 
we have two subcommittee meetings simultaneously, and since I 
am on both, I will be coming and going. But I do have your 
written testimony.
    And, again, we all want to make the world safer. And for 
those who are suffering or who have lost someone, you are in 
our hearts, and we want to do the right thing here.
    So, with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you for recognizing me for this opening statement.
    As we examine a bill today from Ms. Bonamici, one of my 
colleagues from Oregon's congressional delegation, I must say 
that I am of many minds on the legislation.
    At a 50,000-foot level, I join my colleagues in wanting to 
see an end to mesothelioma, cancer, and other pulmonary 
diseases precipitated by asbestos. To the families suffering 
with these diseases right now and those who have lost loved 
ones to it, I sympathize with you and the advocates of this 
bill, I recognize the tragedies you have faced, and understand 
you want a solution once and for all.
    I also appreciate what my colleague, Mr. Shimkus, has said 
about the process he authored into law a few years ago to 
address questions of safety about many chemicals--but 
especially one--that is playing out, as we speak, and that Mrs. 
Dunn will talk about on the first panel today. If Congress is 
going to consistently pre-empt EPA reviews with statutory 
mandates, what's the point of all those newly expanded 
authorities in TSCA?
    Even well-meaning legislation can be a blunt instrument for 
problem solving where, if not careful, Congress can create risk 
trade-offs that spawn unintended public health risks, institute 
unimplementable enforceable requirements, or require complex 
and hard to meet compliance obligations.
    Looking at this legislation, I have many questions about 
how it operates and what it means. For example:

        <bullet> The legislation requires any mixture or 
        article that is distributed in commerce to not have 
        asbestos present as an impurity.
        <bullet> Does this apply to incidental fibers?
        <bullet> Do American businesses have to test and 
        certify every product sold in this country to guarantee 
        it does not contain ANY asbestos--regardless of whether 
        it was intentionally added?
        <bullet> Do people in rural areas no longer get to use 
        gravel for roads?
        <bullet> Would talcum powder fall under this or would 
        it be exempted as an FDA regulated product?

    The legislation also requires very specific and complex 
reporting to EPA by those who either manufactured, imported, 
processed, or moved in commerce asbestos, or mixtures or 
articles containing asbestos--including an incidental amount--
in the three years prior to and one year after the bill's 
enactment.
    How does a person report an incidental amount when they 
weren't expected to track it?
    What is the utility of all this reporting to EPA on top of 
information from EPA's chemical data reporting--especially if 
the substance is banned?
        <bullet> Why is personally identifying information 
        disclosed to the public from each report when EPA is 
        only required to produce an aggregated report that 
        isn't specific to each person reporting?

    Finally, the legislation provides a shorter transition 
period and moots existing TSCA provisions permitting an 
exemption for use of a chemical that provides greater public 
health protection than its alternatives.
        <bullet> I am especially concerned about the immediate 
        loss of 36 percent of our nation's chlorine production 
        and what that means for hospital disinfection, drinking 
        water treatment, and pharmaceutical production.
        <bullet> The resources required could push businesses 
        to import materials rather than make them here. Do 
        healthcare costs and drinking water rates spike, does 
        availability to these services lessen, or do gaseous 
        chlorine shipments come to our major ports?
        <bullet> To protect the economic health of working men 
        and women, are alternatives technologically and 
        economically feasible? If so, are they "drop in ready" 
        and safer?

    So, Mr. Chairman, while I support the intent of my 
colleague from Oregon Ms. Bonamici's bill, I do think there are 
issues that we need to work through if we are going to 
responsibly legislate in this space.
    I look forward to hearing from each of the witnesses today, 
and I hope their testimony will better clarify for me what the 
best path forward is.
    With that, I yield back the remained of my time.

    Mr. Tonko. The gentleman yields back.
    I would like to remind Members that pursuant to committee 
rules all Members' written opening statements shall be made 
part of the record.
    I will now introduce our witness for today's first panel, 
Alexandra Dunn, the Assistant Administrator of the United 
States Environmental Protection Agency, Office of Chemical 
Safety and Pollution Prevention.
    Before we begin, I would like to explain the lighting 
system. In front of you are a series of lights. The light will 
initially be green at the start of your opening statement. That 
light will turn yellow when you have one-minute left. And 
please begin to wrap up your testimony at that point. The light 
will turn red when your time expires.
    So, we thank you for that help, Administrator. At this time 
the Chair will recognize Assistant Administrator Dunn for 5 
minutes to provide her opening statement.
    Oh, there are no lights on your table. OK. So, forgive me, 
all of that, all that--OK. Thank you. Miracles of all kinds.
    So, Ms. Dunn, 5 minutes please.

STATEMENT OF ALEXANDRA D. DUNN, ASSISTANT ADMINISTRATOR, UNITED 
  STATES ENVIRONMENTAL PROTECTION AGENCY, OFFICE OF CHEMICAL 
                SAFETY AND POLLUTION PREVENTION

    Ms. Dunn. Well, good morning, Chairman Tonko. And 
notwithstanding the absence of the lights, I can see the clock 
up there.
    Mr. Tonko. OK.
    Ms. Dunn. Chairman Pallone, Ranking Member Shimkus, and 
Ranking Member Walden, members of the committee, as you heard, 
I am Alexandra Dunn, Assistant Administrator of EPA's Office of 
Chemical Safety and Pollution Prevention, and it is a great 
privilege and honor to appear before you today to discuss 
asbestos.
    I am pleased to share with you the significant efforts the 
EPA is undertaking to address public health risks from exposure 
to asbestos. This administration is the first in 30 years to 
use the Toxic Substances Control Act, amended by the Frank R. 
Lautenberg Chemical Safety for the 21st Century Act, to place 
additional restrictions on products that contain asbestos.
    It is helpful to look at EPA's asbestos regulation in three 
phases. As you noted, EPA's actions around asbestos took a 
major step forward when in 1989 we finalized the TSCA Asbestos 
Ban and Phase out; banning the manufacture, importation, 
processing, and distribution in commerce of most uses of 
asbestos. In 1989--excuse me, in 1991, this regulation was 
largely overturned by the Fifth Circuit, leaving only five 
asbestos products and all new uses of asbestos banned. The 1989 
partial ban remains in place, and our new actions build upon 
it.
    Second, on April 17, 2019, EPA closed a loophole left by 
the 1991 court decision. We signed a regulation that will 
present historic uses of asbestos from returning to the United 
States through domestic manufacture or import without EPA 
review. Our action affects 18 categories of historic asbestos-
containing products, such as asbestos vinyl floor tiles and 
insulation, and has a ``catch all'' restricting any other uses 
of asbestos not currently ongoing.
    This is an aggressive and critical step to protect the 
public from the health risks associated with asbestos, 
including the increased risk of cancer.
    Third, we complete the circle of protecting the public from 
asbestos risks as we undertake a risk evaluation for the 
limited ongoing industrial uses of asbestos. A TSCA risk 
evaluation, as described by Mr. Shimkus, determines whether a 
chemical substance presents an unreasonable risk, under the 
conditions of use, to health or the environment, including an 
unreasonable risk to relevantly potentially exposed or 
susceptible subpopulations such as workers.
    If EPA determines that the manufacture, processing, 
distribution, use, or disposal of a chemical substance presents 
an unreasonable risk, we must take risk management actions 
under TSCA Section 6. Our process is open and transparent. The 
asbestos draft risk evaluation will be peer reviewed and 
available for public comment under the timetables in TSCA.
    We received two petitions asking EPA to require additional 
asbestos reporting. After consideration, EPA denied both 
petitions. Through preparing the asbestos scoping document and 
drafting the risk evaluation, we are confident that we have a 
sufficient understanding of the conditions of use of asbestos.
    We understand that many stakeholders want EPA to ban all 
remaining asbestos products now. Under TSCA, EPA cannot move 
directly to risk management actions such as a ban without first 
completing the risk evaluation and making an unreasonable risk 
determination. This is the path we are following consistent 
with our legal authority.
    EPA has also received comments asking us to address risks 
from legacy asbestos, asbestos-containing materials 
manufactured or imported in the past that may still be present 
in buildings and homes. We are not ignoring the legacy problem. 
Asbestos-containing materials that are not damaged or disturbed 
are not likely to pose a health risk. When asbestos is to be 
disturbed, Federal, State, and local laws, regulations, and 
programs are in place for the safe removal and disposal of 
these materials.
    The outlined actions show that we are committed to 
protecting all Americans from unreasonable risk associated with 
asbestos and to working with stakeholders and our Federal, 
State, and local partners. Again, for the first time in 
decades, EPA has made addressing asbestos a priority.
    On March 7, 2019, Representative Bonamici and others 
introduced H.R. 1603, the Alan Reinstein Ban Asbestos Now Act 
of 2019. EPA does not have a formal position on the bill but 
can provide technical assistance on this issue upon request.
    In conclusion, thank you, Chairman Tonko, Chairman Pallone, 
Ranking Member Shimkus, and Ranking Member Walden, and members 
of the committee for the opportunity to testify before you 
today. EPA looks forward to continuing our work with you to 
protect the public's health and well-being. I look forward to 
any questions.
    [The prepared statement of Ms. Dunn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Tonko. Thank you very much. Now that the Administrator 
has concluded her opening statement, we will move to member 
questions. Each Member will have 5 minutes to ask questions of 
our witness. I will start by recognizing myself for 5 minutes.
    Administrator Dunn, thank you again for appearing before 
the subcommittee. It is my sincere hope that you are able to 
lead the Office of Chemical Safety and Pollution Prevention 
effectively. In my opinion, the office went off track in the 
early years of this, the Trump administration.
    Congress passed the Lautenberg Act to have certainty that 
EPA would have the authority to ban indisputably harmful 
substances like asbestos. Three years later and I certainly am 
not as confident that will be the ultimate outcome.
    Administrator, do you have any thoughts on how over 60 
other nations, and even the United States at one time when it 
had banned asbestos, have managed to continue to be productive 
despite having banned asbestos?
    Ms. Dunn. We are always engaged in international 
conversations with other countries. We believe that we are 
implementing TSCA, the new law that we have, using all of its 
authorities and powers that we have to look at asbestos; and 
feel very confident that we have the tools that we need.
    Mr. Tonko. And do you have concerns that the United States 
could not manage that transition?
    Ms. Dunn. I am confident that we are able to manage the 
transition to the new Lautenberg law. We have met all the 
deadlines under the new law to date.
    Mr. Tonko. Well, with a ban in general could we manage that 
transition?
    Ms. Dunn. Managing a ban, if under TSCA we reach a 
conclusion that there is an unreasonable risk presented under 
the conditions of use, and that a ban is the only way that 
those risks could be mitigated. EPA would have the capability 
to manage that process.
    Mr. Tonko. And, obviously, work has been done going back to 
the 1970s on the United States ban. There are career staff at 
EPA that have been working on asbestos for literally decades. 
What role do you believe EPA career staff should play in 
determining the agency's path forward on asbestos?
    Ms. Dunn. I am absolutely privileged every day to work with 
our career staff. They have prepared me today for speaking with 
all of you. They have incredible expertise about asbestos; how 
it is used in the United States. They did all the ground work 
around our risk evaluation, and they are absolutely dedicated 
to the task at hand. Very committed to the public service.
    Mr. Tonko. In late August, the New York Times reported a 
story entitled ``EPA Staff Objected to Agency's New Rules on 
Asbestos Use Internal Emails Show,'' which outlined career 
staff's concerns with this new proposal. I appreciate that 
story was published before your confirmation; but just this 
morning The Times published ``EPA Leaders Disregarded Agency's 
Experts in Issuing Asbestos Rule Memos Show.''
    Do you have any thoughts on these stories or understand why 
it may cause some members to question EPA's political 
leadership's commitment to implementing a ban?
    Ms. Dunn. I don't want to comment on internal conversations 
amongst our staff. We encourage full disclosure and 
conversation amongst our teams. We explore a variety of options 
at all times. And my door remains open to any member of our 
staff who feels they are not being heard in regard to their 
professional opinions.
    Mr. Tonko. But moving forward do you plan on seeking input 
from career staff from across program offices on asbestos and 
other risk evaluations?
    Ms. Dunn. Absolutely.
    Mr. Tonko. And I know you previously led EPA Region 1. Do 
you believe the career staff at regional offices can provide 
valuable insights?
    Ms. Dunn. Having been the regional administrator in New 
England for all of 2018, I have a great appreciation for the 
ability of our EPA regions; many of whom you all interact with 
when you are home. That is the EPA that you see, not 
necessarily the Beltway EPA.
    What I really enjoyed about the regional office is that we 
are very close to communities. I went to many public meetings. 
I sat with communities. Probably got a flavor for what you all 
go through when you go home, when you listen to communities 
with concerns, whether it was with regard to Superfund sites or 
other chemical exposures.
    So, so being on the ground, to answer your question, yes, 
our regions can be very helpful to us with that direct 
communication from the field essentially.
    Mr. Tonko. And are you familiar with criticisms by Region 
10 staff of both the proposed SNUR and the scope of the risk 
evaluation from May and August 2018 respectively?
    Ms. Dunn. I am not familiar with the Region 10 staff.
    Mr. Tonko. Well, based on some of these communications, it 
seems clear that numerous EPA career staff believe the Agency 
is not fully pursuing efforts to reduce asbestos exposure. And 
I hope these expert voices have an appropriate role in the 
process as it moves forward.
    And with that, I thank you for your response to our 
questions.
    The Chair now recognizes Mr. Shimkus, our leading 
Republican on the subcommittee, for 5 minutes to ask questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I get the sense from listening to the majority that they 
are concerned that comprehensive action on asbestos isn't 
happening and they want it to occur immediately. I detected 
from your opening statement that there is an effort within 
EPA's TSCA work to get at many of these things.
    So, can you help me piece together how the Agency is 
addressing asbestos? Can you please walk me through the 
thinking and implications of EPA actions on your Significant 
New Use Rule on asbestos and the ongoing risk evaluation of 
asbestos?
    Ms. Dunn. Yes. It would be my pleasure to do that.
    The Significant New Use Rule, which we just signed a few 
weeks ago, is a very important action for us to take. It makes 
clear that any historic, not-ongoing use of asbestos cannot 
occur and resume in the United States without notification to 
EPA. Notification to EPA provides us all the tools in TSCA to 
look at the proposed use.
    If anyone thought that getting into the business of 
asbestos was a good idea, they would have to come forward to 
the EPA, we would have to look at the type of activity that 
they wanted to undertake, we would have to assess any potential 
risks, and we would have to put requirements on that activity 
to mitigate all risks.
    The requirement could also turn out to be a no, that they 
may not commence that activity.
    So, the action we took with the SNUR is very important. It 
puts EPA in a very important place with regard to these 
historic uses.
    Mr. Shimkus. Thank you. Are you on track to timely complete 
your evaluation and make a determination on asbestos by the end 
of this year?
    Ms. Dunn. We are on track. We are completing the risk 
evaluations of asbestos and the other nine chemicals. Just this 
morning an announcement went out that our Science Review 
Committee, which is brand new under TSCA, will be meeting in 
June to begin looking at the first of the first ten chemicals. 
And we will be moving our way through them throughout the 
summer. We are very much anticipating meeting our end-of-year 
deadline.
    Mr. Shimkus. That is that purple 29 one?
    Ms. Dunn. Pigment violet 29.
    Mr. Shimkus. Purple was my high school color, so.
    Some of you have heard today--some of what you have heard 
today and the dinging the Agency for not addressing legacy uses 
of asbestos. What do you say in response to those criticisms?
    Ms. Dunn. EPA's authority under TSCA has to do with the 
manufacture, distributing, importation, and use, and disposal 
of asbestos. So, we are focusing on our legal authority.
    When it comes to legacy uses, EPA relies on the fact that 
there are many, many other programs, including under OSHA, 
under our Clean Air Act, the NESHAP. There are requirements for 
anyone who is disturbing asbestos when it is intact. We want to 
make sure that that is done safely and properly. So, there are 
many controls at the State and Federal level around legacy 
asbestos.
    Mr. Shimkus. In 2016, EPA designated asbestos as one of the 
first ten chemical substances subject to risk evaluation. Is 
the Agency on track to complete this risk evaluation by the end 
of 2019?
    Ms. Dunn. We do remain on track, yes.
    Mr. Shimkus. Can we expect a determination regarding 
unreasonable risk for all the conditions of use the agency 
identified in its scoping document from June 2017?
    Ms. Dunn. I cannot prejudge today what we will find through 
our risk evaluation. The risk evaluation will go to peer 
review, also to public comment.
    We are looking at the limited, ongoing uses of asbestos. 
Right now they are industrial. They largely have to do with the 
fabrication of diaphragms for chlorine and sodium hydroxide 
production, as well as some other very, very narrow industrial 
uses.
    Mr. Shimkus. Since H.R. 1603 is silent on it, what legal 
effect does H.R. 1603, if enacted, have on ongoing risk 
evaluation and any resultant risk management requirements?
    Ms. Dunn. The fact that the bill is silent on that is of 
some concern. It does not tell us to stop our work. And so we 
would hope to reach some clarity around that should the bill 
advance.
    Mr. Shimkus. Thank you. My time has expired.
    Let me just say those are questions I wanted to get on the 
record. I tell people I hate asbestos, OK. But in delving down 
into chemicals and dealing with the risk issue, I like the fact 
that chlorine is a major use in keeping water safe for use. I 
like the soda hydroxide for cleaning hospitals. So, we have 
some issues here. But I appreciate your being here.
    I'm sorry to go over time. I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from California, 
Representative Peters, for 5 minutes.
    Mr. Peters. Thank you, Ms. Dunn, for being with us today.
    Can you explain to me what has been the status--well, let 
me ask first, what has been the status since between 1991 and 
up to the time of your issuance of the Significant New Use Rule 
on asbestos? How has that differed from what you are doing now?
    Ms. Dunn. There was not a significant movement to bring 
historic uses back to the United States. However, we took 
action on the SNUR to ensure that that could not occur.
    Mr. Peters. OK. And so, have you been approached by people 
who want to continue to use asbestos or use it in ways that 
would require the development of the Significant New Use Rule? 
Is that what?
    Ms. Dunn. We have not been approached right now by entities 
that intend to commence the asbestos uses.
    Mr. Peters. OK. So what would be examples of asbestos-
containing goods that you would expect would be eligible for 
the case by case approval?
    Ms. Dunn. Some of the historic uses that we address in the 
SNUR are 18 categories. They include building insulation, 
asbestos vinyl floor tile, roofing tile. Those are some of the 
examples of products that historically contained asbestos that 
are not currently being imported or brought into the United 
States. And we would want to ensure that before thatever-
occurred EPA would have a chance to review that.
    Mr. Peters. And it is my understanding that in each of 
those uses substitutes have developed for asbestos that have 
been effective. Is that your understanding as well?
    Ms. Dunn. I am not aware of the full range of substitutes, 
but I know that roofing is occurring today without imported 
asbestos roofing tile.
    Ms. Peters. Right. How would your evaluation of the 
Significant New Use Rule application be affected by the 
availability of substitutes in the economy?
    Ms. Dunn. Well, certainly through our chemicals program we 
are always looking for new chemicals. We have an entire new 
chemicals program where innovators bring forward new 
chemistries. They ask us to review them. That's another one of 
our authorities under TSCA. We review new chemicals. We 
determine if any restrictions need to be placed on them.
    We don't say that every new chemical is (air quote) 
``greener than an existing chemical," but in many cases the new 
chemistries coming forward are shorter-lived in the 
environment, more focused in how they act in the environment, 
and can in some cases be greener.
    Mr. Peters. Let me be a little bit more focused. So, let's 
take building insulation, which has been the big use over time 
and from which a lot of the friable asbestos come. That is not 
the standard anymore. People are using different materials for 
building fire retardants and for insulation. Those are 
available in the economy.
    And someone comes to you, they want to do a new product for 
that use with asbestos in it, you have to evaluate the risk; 
right?
    Ms. Dunn. Yes.
    Mr. Peters. And so, is part of the evaluation of the risk 
for the new product the fact that it is really not needed 
because it has been, the need for it has been met by other 
substitute product?
    Ms. Dunn. We look at a full range of factors under the law 
as to whether or not that product can come to market. Most of 
our review is around the safety of the product. We do look to 
see if there are other products in the marketplace that can 
give us a sense of risk. But EPA is not in the role of making 
decisions about the marketplace.
    Mr. Peters. OK. Can you describe for me what the analysis 
is generally behind the Significant New Use Rule application?
    Ms. Dunn. Right. So, as an application comes in, we have a 
team of risk assessors, risk evaluators.
    Mr. Peters. Health risk assessors, health risk evaluators?
    Ms. Dunn. Health risk assessors, yes. Exposure experts. 
They look at all the conditions of use. They not only look at 
what that applicant says they want to do with that chemical, 
but they also have to under TSCA look at other reasonably 
foreseeable uses.
    Mr. Peters. Right.
    Ms. Dunn. So, we have to look out and determine if there 
are any other uses that maybe the applicant has no intent of 
using the chemistry in that fashion, but we look at the other 
ways it could be used. We assess any of those risks as well.
    And we come back and we determine if there are requirements 
that need to be put in place to mitigate risk.
    Mr. Peters. And how do you determine what an acceptable 
level of health risk is?
    Ms. Dunn. Well, it depends on the chemical, but we look at 
the hierarchy of controls. So, we largely look at how the 
workers are coming into contact with the chemistry. So, we look 
at ventilation. We look at how----
    Mr. Peters. I am sorry, I have about 3 seconds left.
    Let me just tell you my concern. We can pick it up later.
    Ms. Dunn. OK.
    Mr. Peters. Which is that you could decide that something--
you are willing to take a certain amount of risk if it is a 
product that is necessary to meet some need in the economy. 
What I would like to hear is that, given that there are other 
ways to meet that need in the economy, you would take a hard 
line on asbestos and evaluating what risk is acceptable.
    I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the representative from West 
Virginia, Representative McKinley, for 5 minutes. 
Representative.
     Mr. McKinley. Thank you, Mr. Chairman.
    In the construction industry we have found ways of dealing 
with asbestos over the years. We have banned the product quite 
effectively, finding alternative use, alternative materials, 
even though polyurethane has been often criticized because it 
has other environmental issues in using polyurethane. So we in 
the construction industry we have found ways for dealing with 
it.
    But after this, the 1989 ban and then the 1991 return, from 
what I understand there are only five products that apparently 
were ultimately completely banned.
    Ms. Dunn. Yes.
    Mr. McKinley. And that allowed us, people to continue using 
some form of asbestos.
    So, I'm curious, since the construction industry came up 
with alternatives----
    Ms. Dunn. Yes.
    Mr. McKinley [continuing]. That were viable, effective, why 
hasn't the industry been able to replace asbestos to be using 
all other products? Why do we, why in God's name do we, still 
use this thing?
    Ms. Dunn. Well, we largely do not use it. So, the action 
that we took a few weeks ago is to ensure that any of those 
historic uses that were left out after the court decision 
invalidated our total ban, what we did was we took the 18 
categories of uses that were still available should someone 
decide to enter the United States marketplace with them. No one 
has been. They are dormant uses. But what we have done now is 
close the door to ensure that someone could not decide to bring 
back one of those uses for whatever reason they chose, without 
coming through EPA.
    Mr. McKinley. Can you explain a little bit about the 
chlorine? I need to understand that because we banned all the 
piping with it. How is that involved with chlorine?
    Ms. Dunn. So, each----
    Mr. McKinley. Chlorine filters, I think you said something 
with filters.
    Ms. Dunn. Yes. EPA is required under TSCA to look at the 
ongoing conditions of use of asbestos. So, you were asking 
where is asbestos still used in the United States? Not largely 
in building and construction, as you mentioned.
    Mr. McKinley. Know that.
    Ms. Dunn. But I will tell you where it is used. It is used 
all through import. All the asbestos that comes into the United 
States today is imported from other countries. And the imported 
raw, bulk asbestos is used to make diaphragms for chlorine and 
sodium hydroxide production. It is also used in sheet gaskets 
in chemical production such as titanium dioxide production. It 
is used in brake blocks in oil drilling equipment.
    Mr. McKinley. So, OK.
    Ms. Dunn. Yes.
    Mr. McKinley. I can read that as well.
    But why do we allow that? Why are we importing, why are we 
allowing imports to come in that are hazardous?
    Ms. Dunn. So, this is the risk evaluation process that EPA 
is undertaking now. We are looking at all those uses, and a few 
more that I just listed. We are looking at whether these uses 
pose unreasonable risk.
    And if we find that they pose unreasonable risk, we have 
two years to take action.
    Mr. McKinley. Well, only thing in a reasonable risk, if we 
don't allow American manufacturers to do it, why would we let a 
foreign manufacturer do it?
    Ms. Dunn. Well, these are American companies importing 
these, this raw asbestos for these limited industrial uses.
    Mr. McKinley. Well, you have opened up a can of worms here 
with that.
    So, then we just say that maybe falling back again with 
what Shimkus was raising on his questioning, and I've got just 
a minute left on it. Can you follow up more on the importance 
of following the procedures outlined under TSCA when 
considering future actions? I'd like to understand more of that 
aspect of it.
     Ms. Dunn. Well, what I hear from you, Representative, is a 
great concern about these remaining uses of asbestos. And so, 
the process that we are following is that by the end of this 
year we will complete a risk evaluation of any risk that we 
identify under these uses in the chlorine manufacturing and the 
other industrial uses.
    We then, if we find unreasonable risk, and we have to make 
that finding under TSCA, if we find any unreasonable risk, and 
it wouldn't be across the whole category, we have to look at 
each use, then we have two years to take a risk management 
activity. That could require labeling, restrictions, a whole 
variety of ways to get rid of that risk.
    The most significant way to get rid of a risk is a ban. But 
that's only one of our tools.
    Mr. McKinley. OK. I guess I have run out of time.
    I am just--would you explain to me--as I understand this--I 
am walking out of this now, you said American manufacturers 
can't make the asbestos product, a brake block, a brake 
assembly, but if they go overseas and import it, they can?
    Ms. Dunn. They are bringing the asbestos in.
    Mr. McKinley. That is incredible. Thank you.
    I yield back.
    Mr. Tonko. The gentleman yields back.
    We now go to the voice of Delaware, Representative Blunt 
Rochester.
    Ms. Blunt Rochester. Thank you, Mr. Chairman and thank you, 
Ms. Dunn, for your testimony.
    Based on the scientific evidence available at the time, EPA 
determined in 1989 that a ban on asbestos was necessary to 
protect human health. That decision was based on 10 years of 
work and an exhaustive record.
    In the 30 years since the ban was published, research has 
shown more dangerous forms of asbestos and more deadly impacts. 
We now know that asbestos not only causes mesothelioma and lung 
cancer, but also cancer of the larynx, pharynx, stomach, and 
colorectum, and ovary. Unfortunately, EPA excluded those 
cancers from the problem formulation document for asbestos.
    Ms. Dunn, can you explain why EPA excluded those cancers 
from the problem formulation document?
    Ms. Dunn. Well, we are looking at the industrial uses that 
I was just explaining; those five or six limited industrial 
uses. And we will look at any health risks associated with 
those uses. So, if there are health risks along the lines that 
you identify we will be looking at all the relevant literature.
    Ms. Blunt Rochester. I actually have a document to submit 
for the record. And it is a memorandum prepared by career staff 
in EPA's Region 10 office raising concerns about the EPA's 
problem formulation for asbestos. And I would like to submit 
this for the record.
    Mr. Shimkus. Mr. Chairman, I reluctantly object to its 
submission. As the Assistant Administrator spoke earlier, she 
can't comment on internal documents. So, for us having an open 
hearing here without her ability to comment or put the whole 
memo on context, I wish we wouldn't ask for that to be 
submitted.
    Mr. Tonko. Mr. Shimkus, I believe the representative wants 
simply to relate what she has before her and ask for a response 
from the witness. I believe if she puts it in that context, 
that she shares the statement, all we are looking for is a 
reaction to that statement.
    Ms. Blunt Rochester. Mr. Chairman, could I just briefly 
read a quote and then respond to the quote?
    Mr. Shimkus. Well, I can't stop you from reading a quote. 
My concern is a submission for the record and this not being 
the Oversight and Investigation Committee.
    But I want to also say, Chairman, if I may, and if your 
time--Can I--I am open to have a debate on these memos in a 
bipartisan process somewhere outside of this hearing.
    Mr. Tonko. Well, then I would say, fine; let the 
representative go forward with the quote.
    Ms. Blunt Rochester. OK. So, this is the quote. ``There are 
other significant lethal and nonlethal harms from asbestos 
exposures, including asbestosis and other respiratory ailments, 
ovarian cancer, colorectal cancer, and cancers of the stomach, 
esophagus, larynx, and pharynx. These additional harms should 
be included if there is to be a comprehensive evaluation of the 
risks from exposure to asbestos.''
    And so, the question was do you dispute that, that claim?
    Ms. Dunn. Well, Representative, I am not familiar with 
that. And I would prefer not to comment on internal 
deliberative conversations of our staff.
    Ms. Blunt Rochester. What I did--what I thought I did hear 
you say earlier is--because my next question was would you 
consider these cancers in the risk evaluation? And I think I 
heard you say?
    Ms. Dunn. If our evaluation of the conditions of use reveal 
that those types of cancers are a possible outgrowth of the 
ongoing conditions of use, then we would not rule them out.
    Ms. Blunt Rochester. So, Assistant Administrator Dunn, we 
always talk on this committee about risk as a product of hazard 
and exposure. And do you agree with that as part of the 
formulation?
    Ms. Dunn. That is absolutely how we approach risk at the 
United States EPA.
    Ms. Blunt Rochester. So, I have one minute.
    To me it seems obvious that excluding those hazards and 
those exposures undermines the validity of your risk evaluation 
and amounts to considering non-risk factors, which is 
prohibited under TSCA. That is why I share the chairman's 
concerns that your actions under TSCA on asbestos will not 
survive a court challenge. That is one of the concerns and why 
I don't think we can really wait to ban this substance. And I 
support this bill and hope my Republican colleagues will also 
join in supporting and doing so.
    Thank you. I yield back.
    Mr. Tonko. The representative yields back.
    The Chair now recognizes the gentleman from Ohio, 
Representative Johnson, for 5 minutes. Representative.
    Mr. Johnson. Thank you, Mr. Chairman.
    We are discussing a very important issue today. There is no 
question about that. I share the concerns about asbestos. I 
don't think there is any question about the health implications 
of asbestos.
    However, Assistant Administrator Dunn, I am trying to piece 
together how the implementation of the required private sector 
reporting would work based on this legislation H.R. 1603. It 
appears to be silent on how to determine if asbestos is 
contained in a material or product, in particular those 
containing asbestos as an impurity.
    So, how would the EPA define impurity for the purposes of 
implementing this legislation? Could it be one strand of fiber?
    Ms. Dunn. Thank you for your question. Currently TSCA Title 
2 defines an asbestos-containing material as a material 
containing more than 1 percent asbestos by weight. That is what 
we use today.
    Our review of the bill does not reveal that it includes a 
factor like that.
    Mr. Johnson. OK. Does it seem reasonable to you that 
standardized, cost-effective test methods may be necessary to 
implement the ban?
    Ms. Dunn. Absolutely. There are a number of different test 
methods. There is no sort of consensus method at this point. So 
it would require some time to agree in the scientific community 
as to what method would be the best of the many that exist.
    Mr. Johnson. Yes, that is some of the devil in the details, 
because when we have no agreed-upon standardized test then we 
wind up shooting with a shotgun instead of with a laser to try 
and solve a problem.
    Is there a test in particular that could easily be 
deployed?
    Ms. Dunn. In talking to our technical experts, there are a 
variety of tests. They would want to do more research to 
respond to your question in terms of how easily some might be 
deployed over others.
    Mr. Johnson. Could you get back to us on that?
    Ms. Dunn. Be happy to do that.
    Mr. Johnson. OK. And you might have to give the same answer 
for these other questions as well.
    Is there enough expertise and laboratory capacity to 
operate these tests for compliance purposes?
    Ms. Dunn. We have not done an assessment of laboratory 
capacity at this point.
    Mr. Johnson. OK. Can you get back to me when you do?
    Ms. Dunn. We can.
    Mr. Johnson. OK. Do you read H.R. 1603 to assume those 
persons subject to its ban provision would need to test 
products and materials to comply?
    Ms. Dunn. Our review of the bill does appear to require 
testing, yes.
    Mr. Johnson. OK. So, other than tobacco products, 
pesticides, guns and bullets, nuclear materials regulated by 
the Atomic Energy Act, and items regulated by the Federal Food, 
Drug, and Cosmetic Act, would every other item manufactured, 
imported, processed, or distributed in commerce be subject to 
these requirements?
    Ms. Dunn. I think the require--at least our initial 
assessment is that the bill is focused on asbestos, but it 
could certainly set testing precedent.
    Mr. Johnson. But, well, I know it is focused on asbestos 
but, you don't know until you test. So, my question is other 
than tobacco products, pesticides, guns and bullets, nuclear 
materials, and those food items or those items regulated by the 
Federal Food, Drug, and Cosmetic Act, it seems to me that every 
other item manufactured, imported, processed, or distributed in 
commerce would be subject to these testing requirements under 
the bill. Is that correct?
    Ms. Dunn. We have not done a complete assessment of that, 
but we would be happy to get back to you.
    Mr. Johnson. Would you please?
    Ms. Dunn. Yes.
    Mr. Johnson. Thinking about the utility of all this 
reporting or on a substance that is being banned, do you see a 
clear benefit to the Agency for using this information that is 
required to be collected by H.R. 1603?
    Ms. Dunn. We believe through our work under TSCA that we 
have a very good understanding of the limited, ongoing uses of 
asbestos in the United States. So, we do not believe that the 
information requested by this bill would be particularly 
helpful to the Agency. It would be a significant undertaking to 
gather it.
    Mr. Johnson. OK. Kind of a corollary then, since the risk 
evaluation of asbestos will be over by the end of 2019, and the 
bill bans asbestos, how might the Agency use all this 
information that it is going to be collecting?
    Ms. Dunn. It is unclear exactly how we would be able to use 
the information, given the timelines of our work under meeting 
the TSCA deadlines.
    Mr. Johnson. OK. All right. Mr. Chairman, I am going to 
yield back the balance of my time, a whole 20 seconds.
    Mr. Tonko. Well, I think we are a little off with the 
clock. So, it is fine, you didn't lose any seconds.
    So, the gentleman yields back. And the chair now recognizes 
the gentleman from Florida, Representative Soto, for 5 minutes.
    Mr. Soto. Thank you, Chairman.
    And I think we understand the history of this; generations 
of workers who lost their lives due to a chemical that since 
the Twenties here in the United States there was awareness of 
its toxicity. We see mesothelioma commercials are ubiquitous 
across T.V. People get a sense this is dangerous, and it no 
longer should be in society.
    So, I think one of the biggest surprises to me, being new 
on the committee, is how this took so long to even get to this 
point. A lot of my colleagues like to extol the importance of 
common sense. It would be a great time to apply it here.
    The public expects us to get it right, particularly on 
public health. They assume we are going to stop things that are 
going to kill us from being in commerce anymore, and that is 
one of our biggest, you know, duties here.
    The Lautenberg Act was a great work, great bipartisan work 
that set up a great framework. That was then, and this is now. 
We aren't bound even by this great framework that could help 
with a lot of other chemicals, as you know. We can, as our 
prerogative, set up general progress--process, and then still 
on this law get more aggressive with certain chemicals, in this 
case asbestos. Being a political branch, we are not bound by 
agency action or inaction.
    I guess my first question is: Is asbestos still being 
manufactured in the United States?
    Ms. Dunn. No. All the asbestos in the United States is 
currently imported.
    Mr. Soto. OK. So, but it is still being purchased and in 
commerce at this point?
    Ms. Dunn. It is brought into the United States for the 
limited industrial uses that I previously alluded to.
    Mr. Soto. Do you know how many new cases of asbestos 
exposure have happened post the Lautenberg Act?
    Ms. Dunn. I do not have that figure available, but I would 
be happy to get back to you on that.
    Mr. Soto. Do you have an estimate? Is it in the hundreds? 
Is it in the thousands of people?
    Ms. Dunn. I don't have an estimate of that.
    Mr. Soto. So we don't know how many people are dying still 
because of inaction; is that correct?
    Ms. Dunn. We do know that some asbestos-related diseases 
are many years in revealing themselves. So, the Lautenberg Act 
was passed in 2016, and we have been aggressively working on 
asbestos since then.
    Mr. Soto. But there could be new exposures happening post 
that, that we will find out about 10, 20 years from now; right? 
Is that fair to say?
    Ms. Dunn. Under the risk evaluation that we are conducting 
of the limited industrial uses that remain, we are looking at 
exposures, particularly to workers.
    Mr. Soto. Does EPA oppose having a ban of asbestos?
    Ms. Dunn. We have no position on the bill.
    Mr. Soto. OK. So, what's holding us back? What are the 
benefits of continuing to have asbestos in commerce currently 
in the United States?
    Ms. Dunn. Well, what we have determined--and, again, we are 
doing a risk evaluation of this process--is that for about the 
five or six industrial uses that they import asbestos to the 
United States for chlor-alkali production, sodium hydroxide 
production, several others, sheet gasket production, that this 
asbestos is still the product of choice. That is not EPA's role 
to tell the companies what product to use.
    Mr. Soto. So it's not the role of EPA to tell companies 
what product to use that we know has a substantial risk of 
cancer? Is that what you're saying there?
    Ms. Dunn. We are following our legal process. And so if we 
reach the end of our risk evaluation process and find 
unreasonable risk from the use of asbestos in these industries, 
we then have the legal power to take a number of important 
steps, which could include what you are looking for; which is 
saying that it could not be used any longer.
    Mr. Soto. And how long do you think it is going to take to 
finish this process?
    Ms. Dunn. We have two years after the end of this year to 
complete that process.
    Mr. Soto. And do you expect you will take the full two 
years?
    Ms. Dunn. I don't want to speculate on how long it will 
take us to act. We will act expeditiously.
    Mr. Soto. OK. I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from Missouri, 
Representative Long, for 5 minutes. Representative.
    Mr. Long. Thank you, Mr. Chairman and thank you, Ms. Dunn, 
for being here. I think that we can all agree that asbestos is 
one of the few things that has a lower approval rating than 
members of Congress. So we, we all are in agreement that 
whatever we can do to help in this situation we need to get 
done.
    This bill before us today would require entities to report 
to the Environmental Protection Agency regarding use, quantity, 
and exposure of asbestos within the last three years prior to 
its passage. The bill would also require the Environmental 
Protection Agency to make this information public within a 
certain time frame.
    The question for you: would the EPA be able to meet the 
information collection requirements under the Paperwork 
Reduction Act for deadlines required from H.R. 1603 for 
producing reporting instructions and forms?
    Ms. Dunn. Thank you for your question. The EPA and all 
Federal agencies are always extremely cognizant of the burdens 
of information collection by the Federal Government on the 
American public and on anyone who has to respond to our 
requests. Our preliminary assessment is that the amount of data 
collection contemplated by this bill would be quite significant 
and quite impactful.
    Mr. Long. Based on how you read this legislation, do you 
have an estimate of how much it would cost the EPA to implement 
the information collection requirements?
    Ms. Dunn. We have not done an estimate.
    Mr. Long. You have no estimate at all?
    Ms. Dunn. No.
    Mr. Long. OK. What would the impact be to EPA's current 
TSCA budget to implementation? I guess you don't know that 
either if you don't know what the cost is going to be?
    Ms. Dunn. What I can tell you is that our TSCA staff are 
working dedicatedly to meet the deadlines under TSCA. This law, 
which as you know was significantly overhauled in 2016, put us 
on a very aggressive clock to look at a number of chemicals, 
the first ten. We already identified 20 more that we are 
looking at; another 20.
    What I can say is that requirements like this would 
certainly put an additional strain on our current staff.
    Mr. Long. OK. The public disclosure provisions are an 
amendment to TSCA Section 6, which are further governed by 
confidential business information provisions in Section 14, as 
well as the Federal Trade Secrets Act. This might tie into what 
you were saying a minute ago, but do you see any conflict at 
all between the information this bill requires to be released 
and existing Federal law protecting the disclosure of certain 
types of confidential information?
    Ms. Dunn. One of the obligations that we have in the 
chemical program is to be very respectful of confidential 
business information. I would like to note that the 
confidential information provisions were the provisions of TSCA 
completely struck by Congress and completely replaced.
    So, we look at those new provisions very, very carefully. 
We have not done a full analysis of any potential conflicts 
between this bill and our existing confidential business 
information requirements. But we would be happy to get back to 
your office on that.
    Mr. Long. When my friend Mr. McKinley was questioning you 
about these four or five existing commercial purposes that 
asbestos is imported into the United States for their usage, 
did I understand you all are doing a study on that or not?
    Ms. Dunn. Yes. Yes. We are required under TSCA as naming, 
since we named asbestos one of the first ten chemicals, we are 
doing a full risk evaluation of all of those uses. And at the 
end of that process we have to make a determination of 
unreasonable risk or no risk essentially.
    And so, if we reach an unreasonable risk determination, we 
then have two years to regulate it, meaning we could require a 
variety of different controls to take that risk away. There are 
lots of ways to remove risk. You could produce the chemical in 
a completely sealed box where none of it gets out.
    But another option that is open to EPA under the law is a 
ban. That is another way to remove the risk.
    Mr. Long. OK.
    Ms. Dunn. But we can't prejudge where we are going to go 
with that.
    Mr. Long. And what is your time frame as far as completing 
this study?
    Ms. Dunn. We are on track to complete the risk evaluation 
by the end of 2019. And then under TSCA we have two years to 
complete the regulatory action.
    Mr. Long. By the end of this year?
    Ms. Dunn. By the end of 2019.
    Mr. Long. December 31, 2019, your study will----
    Ms. Dunnontinuing]. --2021 we would complete the risk 
evalu--we would complete the risk management component of the 
remaining limited uses of asbestos.
    Mr. Long. OK, thank you.
    Mr. Chairman, I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes. Mr. Chairman.
    Mr. Pallone. Thank you. Thank you, Chairman Tonko.
    Every day it seems new evidence comes to light that EPA is 
failing to protect the American people from asbestos and toxic 
chemicals in general. On asbestos, everything we have seen out 
of the Agency, from the scoping document to the recent 
Significant New Use Rule, to the denial of the petition by 
multiple State AGs, shows the desire to discount risk and 
entertain the possibility of new ones or new uses.
    So, I don't think EPA is moving towards a ban. But 
Administrator Wheeler did commit when he was here last month to 
promulgate a ban.
    So, my question to you, Ms. Dunn, are you aware of 
Administrator Wheeler's commitment to me last month to ban 
ongoing uses of asbestos under TSCA?
    Ms. Dunn. I can't comment on the administrator's 
representation to you.
    Mr. Pallone. Well, he said he was going to ban it. Is there 
a timeline for finalizing the ban or do you know anything about 
what he is going to do in terms of finalizing a ban?
    Ms. Dunn. I can't comment on that. What I can comment on is 
that we continue to do our work under TSCA to complete our 
asbestos risk evaluation on time this year.
    Mr. Pallone. Well, let me go back to this risk evaluation. 
One of my biggest concerns with your risk, your asbestos risk 
evaluation is the Agency's position that you have the 
discretion to exclude significant exposures. So, let me ask, 
the scoping document for the asbestos risk evaluation excluded 
exposure, and I quote, ``to legacy asbestos from EPA's risk 
evaluation.'' Is that correct?
    Ms. Dunn. Yes.
    Mr. Pallone. OK. Have you changed course or will the risk 
evaluation, which is due to be published next month, exclude 
the risk from legacy asbestos?
    Ms. Dunn. We are not ignoring the legacy asbestos problem, 
Representative. However, we do believe that there are extensive 
Federal, local, and State requirements that address legacy 
asbestos if it is to be disturbed and removed, demolished 
essentially.
    Mr. Pallone. You have also excluded exposure from disposal 
of legacy asbestos, despite the fact that disposal is 
explicitly included in the statute. Is that correct, that you 
have excluded exposure from disposal?
    Ms. Dunn. We are looking at the ongoing uses of asbestos in 
commerce today, and that is in the manufacturing process.
    Mr. Pallone. But I mean, do you, don't you, won't you 
acknowledge that disposal is explicitly included in the 
statute?
    Ms. Dunn. Absolutely TSCA defines use as processing, 
manufacture, import, disposal, et cetera, yes.
    Mr. Pallone. Well, then how do you exclude exposure from 
disposal?
    Ms. Dunn. In formulating that scoping document there was a 
determination made which certainly through the peer review 
process and through the transparent process we will follow this 
summer could certainly be questioned whether that was a 
reasonable assumption by our scientific experts that that could 
come up.
    Mr. Pallone. I mean the exclusion of the legacy asbestos 
and the legacy disposal is, I think, a major reason why I think 
Section 3 of my bill is so important. But I am also concerned 
that you have excluded relevant cancers, relevant forms of 
asbestos, significant exposure pathways. And I think your are 
failing to meet the letter and spirit of the law by failing to 
evaluate firefighters as a relevant disproportionately exposed 
subpopulation.
    Have you reversed course any of those things that I just 
mentioned?
    Ms. Dunn. We have not had discussions around those items. I 
would be happy to follow up with your office to talk more about 
them.
    Mr. Pallone. I appreciate that. In my view these are fatal 
flaws in your risk evaluation that are going to doom any future 
regulatory action. And as one of the original drafters of the 
Lautenberg Act, I can tell you that we did not intend for EPA 
to conduct risk evaluations that ignore major drivers of risk, 
like the risks posed by legacy asbestos. And I don't think your 
actions implementing TSCA comport with the law. I don't think 
you are moving towards a ban, even though Mr. Wheeler said so.
    And so I urge my colleagues to join us in supporting the 
bill. And that is why we need to have this bill that bans 
asbestos once and for all.
    Can I just ask a question, while there is not much time? 
Pigment violet 29, as part of your risk evaluation for pigment 
violet 29, you identified several studies that have been 
submitted to the European Chemicals Agency that would be 
relevant to your evaluation. Is that correct?
    Ms. Dunn. That is correct.
    Mr. Pallone. And you tried to identify United States 
entities that have those studies in order to inform your risk 
evaluation; is that correct?
    Ms. Dunn. Right.
    Mr. Pallone. You then reached out to the EU entities in 
possession of those studies so you could use them in your risk 
evaluation; correct?
    Ms. Dunn. Right.
    Mr. Pallone. And then you received those studies from the 
EU entities and used them in your risk evaluation. That is 
correct as well?
    Ms. Dunn. That is correct.
    Mr. Pallone. All right. I think I have run out of time, Mr. 
Chairman, on that. But I will ask you to get back to us on what 
you offered before on the asbestos.
    Ms. Dunn. Be happy to.
    Mr. Pallone. Thank you.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from the State of 
South Carolina, Mr. Duncan, for 5 minutes, please.
    Mr. Duncan. Thank you, Mr. Chairman and, I thank the 
witness for being here.
    Administrator Dunn, I am struggling with how some of the 
provisions of this bill will be used. H.R. 1603 requires a 
legacy use consensus--or census of asbestos within 18 months of 
enactment.
    I'm from South Carolina. I lived in South Carolina, North 
Carolina, Virginia. We have textile communities all over our 
States. And those textile communities back in the day, the 
local textile mill-built houses for its employees. Many of 
those houses were built prior to 1950. Many of those houses 
have asbestos siding still. A lot of those houses have been 
renovated by the owners and that asbestos siding has been 
covered up by more modern siding. Right? So, keep that in mind.
    How challenging would it be for the EPA to coordinate with 
the Departments of Labor and Health and Human Services to 
produce a report that accurately estimates the presence of 
asbestos in every residential, commercial, industrial, public, 
and school building and the extent of exposure and risk not 
later than 18 months after enactment?
    Folks, there is no way in Washington that you can determine 
every house just in the South. That is not counting all the 
northern communities that are like textile communities in the 
South where there might be asbestos in the siding. No way. And 
definitely not in 18 months.
    And so the number of buildings nationwide, the amount of 
asbestos remaining in the United States, how hard is that going 
to be for you?
    Ms. Dunn. We identified this provision of the bill as being 
a significant challenge to do well. We pride ourselves at EPA, 
when asked to undertake assessments, of being comprehensive, 
thorough, and accurate. And under 18 months we are questioning 
whether we could come close to completion.
    Mr. Duncan. Are you going to send every homeowner, every 
landlord a questionnaire and say, does the house that you own 
have asbestos siding?
    Ms. Dunn. We had not even begun to think about how we would 
implement it. But I think even gettingresponses----
    Mr. Duncan. That is a heck of a lot of properties.
    Ms. Dunn. It is. We do not have the ability to enter 
private property.
    Mr. Duncan. We have probably already identified most of the 
public buildings and school buildings and that sort of thing 
that may or may not have asbestos. But in those school 
districts we are going to have to spend a lot of resource 
looking at the insulation in their boiler rooms, on their 
pipes, to look at their sidings, their roofing insulation 
materials. How do you plan to leverage resources without any 
additional funding?
    Ms. Dunn. That would be a significant challenge. And as I 
stated earlier, when asbestos is intact and not disturbed it 
does not generally pose a risk.
    Mr. Duncan. All right. Do you have the resources and 
employees to complete this report without disrupting ongoing 
activities at the Agency?
    Ms. Dunn. It would impact.
    Mr. Duncan. I mean, are you going to have to pull people 
from other projects to conduct a survey and provide a report in 
18 months?
    Ms. Dunn. I am not sure our colleagues in other offices 
with other statutory obligations would look kindly on us 
borrowing their people, but I think we would have a very 
difficult job getting this work done with our existing 
resources.
    Mr. Duncan. All right. So, H.R. 1603 requires the President 
rather than the Administrator to determine whether an exemption 
is granted. It also prevents the use of waiver by EPA to 
protect national defense. Since the exemption only applies to 
national security and limits the President's ability to use 
asbestos in the interests of the nation in mind, does this 
limitation on the President infringe upon the President's 
Article II, Section 2 powers under the Constitution in your 
opinion?
    Ms. Dunn. We have not fully assessed the implications of 
this provision, but we did identify it as of concern because 
Section 22 of TSCA already has a definition of national defense 
that appears to be in conflict with what is in the bill.
    Mr. Duncan. All right. I appreciate your being here.
    Let me just make a point. As this bill moves forward there 
will probably be amendments proposed that will give more 
timeline if we are going to do a census. I think there is an 
agreement that asbestos in certain forms and areas are toxic 
and are detrimental to the health of folks in the nation. But 
there has got to be some common sense injected into 
legislation, and I hope to do that in full committee in mark-
up.
    I thank you for being here today.
    Mr. Shimkus. Would the gentleman yield for his last----
    Mr. Duncan. Yes, yes.
    Mr. Shimkus. I just want to check for the record, if we 
could check the record for the Wheeler hearing and make sure. I 
think he said he would like to. Well, I would check the record 
to make sure that that is what the Administrator said.
    I yield back.
    Mr. Duncan. I reclaim my time and I yield back, Mr. 
Chairman.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from the State of 
California, Representative McNerney, for 5 minutes.
    Mr. McNerney. I want to thank the Chairman, and I thank Ms. 
Dunn for testifying this morning.
    But I want to focus on an important part of the legislation 
under consideration, namely the definition of asbestos. This 
bill makes clear that the ban on asbestos should include 
several forms that were excluded from the EPA's proposed ban 
back in 1989 because we didn't know back then that they had, 
some of these other forms had the same properties and same 
risks. This includes several of the Libby amphiboles that have 
been connected to the terrible burden of disease in Libby, 
Montana.
    I have a document here, a memorandum from career staff in 
EPA's Region 10 office that was sent to your office regarding 
the proposed asbestos Significant New Use Rule, or SNUR, 
raising concerns about the definition of asbestos in that 
document. Now, I will go over some parts of the document with 
you.
    The career staff in Region 10 raised a concern about the 
proposed SNUR because it focused only on the six forms of 
asbestos covered in the original 1989 ban. Does the final SNUR 
focus only on those six forms?
    Ms. Dunn. The--we are, we did not redefine asbestos for the 
purposes of the final action we took in April. We are using the 
definition of asbestos in Title 2 of the statute, which does 
not include the two fibers that you are referring to, 
richterite and winchite.
    Mr. McNerney. So we are restricting this to only the six 
forms? That is a yes or no answer.
    Ms. Dunn. We are using the current statutory definition.
    Mr. McNerney. This Region 10 memo cites W.R. Grace 
Superfund case from 2002 concerning the Libby contaminants 
where the Federal District Court rules that the Libby 
amphiboles are in fact asbestos. Are you aware of that case?
    Ms. Dunn. I am not familiar with that case.
    Mr. McNerney. OK. I would recommend that you familiarize 
yourself.
    The Region 10 memo also states, and I am quoting, ``the EPA 
is now aware that there are more than six types of asbestos 
fiber, including several Libby amphiboles which the EPA has 
known about since the 1990s.''
    Do you agree with that statement that the EPA was aware 
that there are other forms?
    Ms. Dunn. I do not have a position on that statement. We 
are using the definition of asbestos in the Act.
    Mr. McNerney. All right. This memo is focused on the 
asbestos SNUR, but the same concerns hold true for overall risk 
evaluation and possible risk management. Is your risk 
evaluation for asbestos going to include exposures to all forms 
of asbestos?
    Ms. Dunn. Our risk evaluation is looking at the limited 
ongoing industrial uses of asbestos today. There are 
approximately five or six.
    Mr. McNerney. Additional types?
    Ms. Dunn. Uses that are still ongoing.
    Mr. McNerney. Uses?
    Ms. Dunn. Yes.
    Mr. McNerney. So you will consider just the six types in 
these five or six uses?
    Ms. Dunn. Right. We are--we are, exactly, yes.
    And the types of asbestos fibers that are used in these 
ongoing industrial manufacturing settings are within the 
current definition of asbestos in the statute.
    Mr. McNerney. So it seems to me like you are missing out on 
quite of bit of risk with regard to additional asbestos types 
that are damaging the American public; is that right?
    Ms. Dunn. Well, we feel very confident that looking at the 
ongoing conditions of use of asbestos in these industrial 
applications will allow us to do a very protective risk 
evaluation.
    Mr. McNerney. Well, I think it is important to define and 
ban all forms of asbestos, not just the six we knew about 30 
years ago. It is clear that an accurate definition of asbestos 
in this bill is one of the most important reasons that this 
bill will be more protective than other actions coming out of 
the EPA.
    Mr. Chairman, I thank you for holding the hearing and I 
yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentleman from the State of 
Georgia, Representative Carter, for 5 minutes, please.
    Mr. Carter. Thank you. Thank you, Mr. Chairman and thank 
you, Ms. Dunn, for being here. I appreciate it very much. This 
is a very important subject for all of us.
    Let me ask just a couple of broad simple questions to begin 
with. Since the Toxic Substances Control Act was passed in 
2016, what kind of extra authority has it given EPA? I mean, 
you have some explicit authorities as a result of that. Can you 
explain those to me very quickly?
    Ms. Dunn. Yes. It is a very powerful law. It Acts, puts us 
on a very aggressive time frame to look at chemicals.
    Some of the things we are most proud of-we have just 
completed an inventory of chemicals in the United States. It 
was estimated that there were over 83,000 chemicals in commerce 
in the United States We have checked with the manufacturers and 
importers and we just announced and finalized that the list is 
actually half. It is about 40,000 chemicals in commerce in the 
United States. So, we cut the list in half. That cuts our 
workload in half.
    But we have to bit by bit work our way through that list. 
We are starting with the chemicals on the 2014 TSCA work plan. 
We are starting with the first ten chemicals that we have been 
talking about today including asbestos. We have already named 
20 high priority chemicals that we are going to start looking 
at next year, as well as 20 lower priority chemicals.
    Mr. Carter. Right. And certainly this is important for a 
number of reasons. Particularly in my district I assume that a 
lot of these go through ports and seaports. And being the home 
of two major seaports in coastal Georgia, this is extremely 
important for us. Our constituents are very concerned about 
this and about the work you have been doing.
    Now, it is my understanding that you are currently 
reviewing the use of asbestos.
    Ms. Dunn. We are.
    Mr. Carter. And that you are going to be releasing your 
draft findings soon. Do you know when that will be?
    Ms. Dunn. We anticipate it will be, I will say, before the 
end of the late summer. We have a scientific review panel that 
has to review it. And most of those individuals are academics. 
The best time to get academics is when they are not teaching 
classes. So, we want to make sure that that information is 
available for them to meet and review in June, July, and August 
of this summer.
    Mr. Carter. OK. Well, I think it is clear from the hearing 
today that none of us, you know, want to see anybody harmed. We 
want protection for everyone.
    I will be quite honest with you, it is my understanding the 
majority of asbestos is no longer being in production, is no 
longer in use. But is any? I didn't realize there were any----
    Ms. Dunn. There is only----
    Mr. Carter [continuing]. Forms of asbestos out there.
    Ms. Dunn. There are only five ongoing limited industrial 
uses of asbestos in the United States today. It is in 
manufacturing. All of the asbestos that is used is imported. So 
there is no ongoing asbestos mining in the United States 
anymore. And that is something that would be covered by our 
activity that we took a few weeks----
    Mr. Carter. Whoa, whoa, whoa. Hold on. I don't mean to 
interrupt you, but you raise my concern here. If it is coming 
from out of the country, then we are not having any regulation 
over it before it gets here? Do we, are we checking it when it 
gets here?
    Ms. Dunn. Well, any import of a chemical does have to be 
checked at the border.
    Mr. Carter. But specifically asbestos? That is what I am 
concerned with here.
    Ms. Dunn. As asbestos is coming in, what we are doing right 
now is a comprehensive risk evaluation of that type of asbestos 
and the uses that it is still being used in the United States, 
which is in the manufacture of brake blocks for oil drilling, 
automotive brakes, vehicle friction products, some gaskets, and 
a couple of chemical productions.
    Mr. Carter. OK. Specific to those that you just mentioned--
--
    Ms. Dunn. Yes.
    Mr. Carter [continuing]. What is EPA doing to guard against 
any problems there may be with those specific ones that you 
just listed?
     Ms. Dunn. Well, any imports of chemicals have to be 
handled with border, Customs and Border Protection now.
    Mr. Carter. So you are grouping them into all chemicals, 
not just focusing on these that you just listed?
    Ms. Dunn. All. We manage the import of all chemicals.
    Mr. Carter. You see where I am coming from. It would just 
appear to me that you would be more concerned because we know 
the dangers of asbestos. It would seem to me that you would be 
more concerned with those than you would be for just 
generalizing them and putting them into a broad group.
    Ms. Dunn. No, I understand where you are coming from. My--
again, the manufacturers, those companies that are using 
asbestos in these limited applications certainly are trying to 
produce a high-quality product. They also have a business 
interest in ensuring that all the ingredients that they use are 
safe in how they are using them.
    Mr. Carter. OK. I am still a little concerned about that. 
So, please, let's take that as being noted. I appreciate it.
    Thank you very much again for being here and I yield back.
    Mr. Tonko. The gentleman yields back.
    The Chair now recognizes the gentle lady from the State of 
California, Representative Matsui, for 5 minutes. 
Representative.
    Ms. Matsui. Thank you, Mr. Chairman.
    You know, since this hearing was noticed my colleagues and 
I have heard from an array of industries that rely upon the 
chlor-alkali industry to produce chlorine and caustic soda. 
These industries are concerned about a possible disruption in 
the chlor-alkali industry, so I want to ask s few questions 
about how and why some members of that industry use asbestos.
    Roughly one-third of the chlorine chlor-alkali industry 
uses asbestos diaphragms in their production process. Is that 
right?
    Ms. Dunn. That, I don't have the figures in front of me but 
that sounds ballpark.
    Ms. Matsui. Does that seem right? OK.
    What information have you sought from those members of this 
industry? And what information have they given you about their 
plans to replace their asbestos diaphragms with other 
diaphragms?
    Ms. Dunn. We have collected extensive information from the 
manufacturers. I would like to be able to get back to you, 
Representative, on what information they may have provided to 
us around alternatives or plans to replace. I don't have that 
information.
    Ms. Matsui. OK. Now, several years ago a large section of 
the chlor-alkali industry changed their--changed over their 
plants to phase out dangerous mercury in their processes. Did 
that transition disrupt the chlorine or caustic soda markets?
    Ms. Dunn. I would have to check with our experts and get 
back to you on that, Representative.
    Ms. Matsui. OK. Isn't it true that non-asbestos diaphragms 
using other chlor-alkali plants are more energy efficient and 
have longer service lives than asbestos?
    Ms. Dunn. Once again, with regard to some of the technical 
questions I would be more than happy to consult with our career 
experts and provide that information back to you very quickly.
    Ms. Matsui. OK. Because my understanding is that it is more 
efficient, so that those who use asbestos could realize energy 
and climate benefits in addition to the benefits of getting rid 
of the toxic asbestos.
    So I would really like that information. I think it is very 
important.
    Ms. Dunn. Absolutely.
    Ms. Matsui. Now, your agency has extensive authority under 
the TSCA to get data from manufacturers. What information has 
your agency requested from the chlor-alkali industry about the 
exposures faced by its workers and by the workers who handle 
disposal of the diaphragms?
    Ms. Dunn. Well, in terms of preparing for our risk 
evaluation we have requested extensive information from the 
manufacturers who are using asbestos in the chlor-alkali 
production. We have a number of studies regarding exposures 
provided to us. And I can find out. We try to have a very 
transparent process and make all of our information available.
    Ms. Matsui. OK. What information have you requested about 
health monitoring and incidents of cancer among workers in the 
chlor-alkali industry?
    Ms. Dunn. So, again, in doing our comprehensive risk 
evaluation we look for all types of information with regard to 
exposures, illness, et cetera.
    Ms. Matsui. And you have that information?
    Ms. Dunn. If we have the information I will go back and 
talk to our staff and see if we can make that available.
    Ms. Matsui. OK. What can you tell us about the fate of 
asbestos diaphragms used in industry? How are they disposed? 
Have they contributed to contamination of land or water?
    Ms. Dunn. I, again that is a--I apologize, that is a 
technical question, but I would like to be able to get back to 
you on that. I do not have that information with me at this 
moment.
    Ms. Matsui. Well, I think it is very important that we 
understand the risk to workers in the industry and also the 
alternatives that might be available to members of the 
industry.
    Ms. Dunn. And the information that you are asking about is 
all included in our risk evaluation of chlor-alkali production. 
So, all of those forms of releases, disposal, manufacturing 
will all be addressed in the document.
    Ms. Matsui. In the document.
    Ms. Dunn. That we are completing and will be available for 
public review and peer review late this summer.
    Ms. Matsui. So, does that also include the information I 
asked you previously that you can get back to me on? Or is that 
additional information you need to get for me?
    Ms. Dunn. Well, I certainly wouldn't make you wait for 
that, so I will make sure that we get back to you more 
promptly.
    Ms. Matsui. OK. I expect to get it as promptly as possible.
    Ms. Dunn. Absolutely.
    Ms. Matsui. Thank you. And I yield back.
    Mr. Tonko. The gentle lady yields back.
    The Chair now recognizes the Republican leader of the full 
committee, Representative Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    And I don't know, you may have to get back to me on this 
one for the record. I am told 36 percent of domestic chlorine 
production is manufactured using a totally enclosed process 
that does use an asbestos filter. Assuming H.R. 1603 becomes 
law and the ability to continue this process ceases, the Safe 
Drinking Water Act has provisions--and we reauthorized that in 
a bipartisan way in the last Congress--that requires access to 
chlorine, chemicals for public water systems that disinfect 
their water with chlorine.
    Do you read the language in H.R. 1603 to create a potential 
conflict between its provisions and that section of the Safe 
Drinking Water Act? I know that is pretty technical, but.
    Mr. Dunn. It is an important topic. And what I would like 
to do is bring this back to our Office of Water----
    Mr. Walden. Yes.
    Mr. Dunn [continuing]. And ask for their perspective on it 
and get back to you.
    Mr. Walden. Yes, I would like that. That would be--and I 
understand. Because we are obviously very concerned as we go 
down this path what are the unintended consequences.
    Mr. Dunn. Absolutely.
    Mr. Walden. And, you know, we don't want to get into a 
situation where water utilities may not be able to get what 
they need to be compliant with safe drinking water.
    EPA recently denied petitions for collecting additional 
information under TSCA asbestos. Why?
    Mr. Dunn. We received two petitions. We looked at both of 
them very carefully. We have published in the Federal Register 
detailed reasons why we denied. But, in short, due to our 
comprehensive assessment of the limited ongoing uses of 
asbestos today in the industrial sector we did not believe that 
the petitions would, the actions they were asking us to take 
and the information they were asking us to collect would, 
enhance our knowledge.
    Mr. Walden. OK. So that is why you would consider the 
information petitioned----
    Mr. Dunn. Would not----
    Mr. Walden [continuing]. Would not be helpful?
    Mr. Dunn. Would not add information to EPA that we did not 
already have.
    Mr. Walden. OK. All right. In carrying out its work under 
TSCA, Section 6, has EPA missed any of what some of us would 
argue are pretty aggressive timelines Congress placed on the 
Agency, either as it relates to asbestos or any of the other 
chemicals you are evaluating? Are you on target in time?
    Mr. Dunn. We are proud to say that we have met every 
chemical-related deadline under TSCA?
    Mr. Walden. Including asbestos?
    Mr. Dunn. We are on track to meet asbestos on time.
    Mr. Walden. All right. All right. Because those were pretty 
aggressive. I mean, sometimes when we legislate, we put down 
timelines. And some agencies are better at meeting those than 
others, and sometimes our timing is off. But you are on target?
    Ms. Dunn. We are on target. We are working very, very hard.
     Mr. Walden. All right. All right.
    Ms. Dunn. Our team is doing a great job.
    Mr. Walden. All right. Those are the questions I have for 
now. I will look forward to hearing back from you, Ms. Dunn. 
And thanks for your leadership over there.
    Ms. Dunn. Thank you.
    Mr. Walden. Mr. Chair, I yield back.
    Mr. Tonko. The Chair yields back. The gentleman yields 
back.
    The Chair now recognizes the representative from 
California, Representative Ruiz, for 5 minutes, please.
    Mr. Ruiz. Thank you, Chairman. Thank you, Assistant 
Administrator Dunn, for being here.
    I support the efforts to decrease the use of asbestos. In 
fact, eliminating the risk of asbestos causing lung cancer, 
mesothelioma, asbestosis, and other scarring of the lung tissue 
that can greatly and terribly affect a person's quality of life 
is something that we should all strive to do, given that it is 
so horrible to experience shortness of breath.
    It is devastating for families when somebody gets diagnosed 
with lung cancers only simply because they were just doing 
their job. And those responsible to ensure that they had a safe 
job to work in failed to adequately prohibit and prevent those 
risks from happening in the first place.
    It is still astonishing that in 2019 we are still 
manufacturing and just recently imported tons of asbestos from 
Russia, China, and Brazil, and still processing new asbestos 
materials in this country given all the science and all the 
public health dilemmas that our public health experts have 
already identified and are warning us about.
    Many of us have been following the court cases concerning 
exposure to asbestos as a contaminant in talc powder. You use 
that to get beach sand off your legs; use that in children, in 
babies. But I doubt many realized that it is still legal to 
have asbestos as a contaminant in consumer products.
    This bill would change that. And under this bill, the 
manufacture and processing of asbestos even as a contaminant 
would be banned. So, to me this is an incredibly important part 
of this bill. Whether it is makeup sold to kids and teenagers, 
talc powder sold for babies, potting soil or other products; 
our products should be asbestos free, period.
    And I want to make sure that we get this part right. So, 
Assistant Administrator Dunn, I have a couple of technical 
questions for you.
    The bill uses the term ``impurity'' because the term 
appears in your TSCA regulations already. How do you understand 
the term ``impurity''?
    Ms. Dunn. So, thank you so much. This is an important issue 
and I understand the concern with trace elements of asbestos in 
consumer products. We----
    Mr. Ruiz. So, the term ``impurity'', how do you define 
``impurity''?
    Ms. Dunn. We currently define ``impurity'' as material 
containing more than 1 percent asbestos by weight.
    Mr. Ruiz. OK. And so, I heard from some of the stakeholders 
that the word ``contaminant'' might be more clear. In your 
view, is the term ``contaminant'' different from ``impurity''?
    Ms. Dunn. We have not conducted an assessment of whether 
different words would be more effective.
    Mr. Ruiz. Can you take that back and respond to my question 
in writing?
    Ms. Dunn. We could certainly take a look at that for you.
    Mr. Ruiz. All right. Because I think that would be 
important. And because I think that the question, I want to ask 
is: Would we be missing anything by not including the word 
``contaminant''?
    Ms. Dunn. I understand your question. And we will make sure 
that we get back to you. As noted, EPA provides technical 
assistance to Congress as Congress----
    Mr. Ruiz. Does EPA have a technical definition of 
``contaminant''?
    Ms. Dunn. We may have a definition under other programs. It 
is certainly an important term in the Superfund program. I am 
not aware of it having----
    Mr. Ruiz. OK.
    Ms. Dunn [continuing]. A meaning in this law.
    Mr. Ruiz. So, I want to make sure that this bill is clear 
that we are--what we are intending, which is to ban asbestos in 
products, whether it be on purpose or by accident, as an 
impurity, a contaminant, ingredient, anything. Just completely 
not in the products.
    In your view, is the bill clear on that point?
    Ms. Dunn. We continue to be available to provide technical 
assistance. We do think that some clarity around, for example, 
the definition would be needed; the 1 percent. How much are we 
talking about? There are trace elements, as you mentioned, of 
asbestos in a variety of products.
    Mr. Ruiz. OK, thank you. That is all my questions. I yield 
back.
    Mr. Tonko. Thank you. The gentleman yields back.
    And now the chair recognizes the gentleman from Virginia, 
the very patient Representative McEachin.
    Mr. McEachin. The penalty for being tardy, Mr. Chairman. 
Thank you.
    Assistant Administrator Dunn, I am going to ask you some 
questions about the Significant New Use Rule. Hopefully they 
will be brief and straightforward, but let's see if we can't 
work together on that.
    When EPA issues a Significant New Use Rule identifying a 
new use as significant, is that use banned?
    Ms. Dunn. The terminology can be a bit confusing. A 
Significant New Use means that the use would be new, and EPA 
would have to review it. So, the effect is that it is not 
ongoing today. And if someone were to want to commence those 
activities, they would have to come to use under the 
Significant New Use Rule and propose, essentially, a 
significant new use of asbestos. An example could be to use it 
in roofing tiles, and EPA would conduct a risk evaluation of 
whether that could be done safely.
    Mr. McEachin. So, as I hear your answer then, even when you 
issue the rule you leave the door open for some sort of use? Is 
that correct?
    Ms. Dunn. The door is open; the door is open. We are not 
aware of anyone who is planning on taking advantage of bringing 
back the dormant uses of asbestos.
    Mr. McEachin. OK. At the present time?
    Ms. Dunn. At the present time we are not aware. And EPA 
would have to review any such proposal.
    Mr. McEachin. OK. Do you foresee the possibility that you 
would approve a pre-manufacture notice for an asbestos use 
listed in a Significant New Use Rule?
    Ms. Dunn. While I can't predispose how we might come out, I 
think it would be highly unlikely that we would find some of 
those legacy uses to be able to be recommenced in a safe manner 
in the United States. There is a reason that they have been 
dormant and that no one is pursuing them.
    Mr. McEachin. And I appreciate your candor. But it still 
sounds like to me that there is that possibility, no matter how 
remote.
    Ms. Dunn. Under our legal authority we have to do the risk 
evaluation before we can ban.
    Mr. McEachin. You know, I don't think we should allow the 
possibility of new uses. We should be getting asbestos out of 
our products and out of our commerce and not offering a pathway 
back to market uses that we have abandoned decades ago. Was the 
Significant New Use Rule required by statute or did you do it 
voluntarily--or did the Agency do it voluntarily?
    Ms. Dunn. The Agency undertook it to close the loophole 
left from the lawsuit that in 1991 where EPA in 1989 tried to 
ban all of these uses and was unsuccessful through litigation. 
And so, we have now closed that loophole. We are the first 
administration to take action in 30 years under TSCA on 
asbestos.
    Mr. McEachin. Did you have contacts, or did the Agency have 
contacts with the chemical industry before the rule was issued?
    Ms. Dunn. I did not have contacts. I can't speak to 
everyone in the agency, but I certainly did not.
    Mr. McEachin. Will you provide the committee with your 
office's correspondence with the American Chemistry Council and 
chemical manufacturers regarding the asbestos Significant New 
Use Rule?
    Ms. Dunn. I understand that we regularly provide documents 
to Congress, and I will ask our Office of Congressional Affairs 
to follow up to provide you what you are seeking.
    Mr. McEachin. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Tonko. The gentleman yields back.
    That concludes our first panel. And we again thank our 
Assistant Administrator Dunn. Thank you for joining us today.
    At this time I ask that staff prepare the witness table so 
that we may begin our second panel shortly.
    Ms. Dunn. Thank you.
    Mr. Tonko. Thank you, Administrator.
    OK, we will now hear testimony from private sector 
stakeholders on this legislation. And we have four witnesses on 
our second panel. And I will introduce those individuals.
    We have Ms. Linda Reinstein, Co-founder of Asbestos Disease 
Awareness Organization.
    We have Rebecca, Ms. Rebecca Reindel, Senior Safety and 
Health Specialist, on behalf of the AFL-CIO.
    We have Mr. Walls, first name Michael, Mr. Michael Walls, 
Vice President of Regulatory and technical Affairs, American 
Chemistry Council; and Dr. Celeste Monforton, Lecturer, Texas 
State University, on behalf of the American Public Health 
Association.
    We want to thank our witnesses for joining us today. We 
look forward to your testimony. And at this time the chair 
recognizes Ms. Reinstein for her opening statement. Thank you 
so much, and you have 5 minutes, with no lights.

  STATEMENTS OF LINDA REINSTEIN, CO-FOUNDER, ASBESTOS DISEASE 
  AWARENESS ORGANIZATION; REBECCA REINDEL, SENIOR SAFETY AND 
HEALTH SPECIALIST, ON BEHALF OF THE AFL-CIO; MICHAEL P. WALLS, 
 VICE PRESIDENT OF REGULATORY AND TECHNICAL AFFAIRS, AMERICAN 
CHEMISTRY COUNCEL; AND CELESTE MONFORTON, LECTURER, TEXAS STATE 
UNIVERSITY, ON BEHALF OF THE AMERICAN PUBLIC HEALTH ASSOCIATION

                  STATEMENT OF LINDA REINSTEIN

    Ms. Reinstein. Thank you, Chairman Tonko, Ranking Member 
Shimkus, members of the committee for giving me the honor and 
the opportunity to testify in support of H.R. 1603, Alan 
Reinstein Ban Asbestos Now Act, ARBAN. My written testimony has 
been submitted for the record.
    I am neither a lobbyist nor an attorney. I am a 
mesothelioma widow and the co-founder of the Asbestos Disease 
Awareness Organization, ADAO, an independent non-profit 
dedicated to preventing exposure to asbestos to eliminate 
deadly diseases that it causes. For the fifth time I am 
testifying on behalf of ADAO, but also your constituents who 
suffer from or have been silenced by asbestos-caused diseases.
    Today's ban assessing legislation hearing is a landmark 
step forward for public health. And I am honored to have H.R. 
1603 named after my husband, but it is really for the hundreds 
of thousands of Alans who paid a price for this manmade 
disaster with their lives.
    My daughter Emily is sitting to my left. She was just 10 
when her father Alan was diagnosed with mesothelioma. He opted 
for a radical procedure to remove a rib, resect his left lung, 
strip off his pericardium, and surgically replace his diaphragm 
in hopes for more time with us. He fought a hard 3-year battle. 
And, like we know, mesothelioma patients rarely win, he died 
three years later with Emily and me by his side.
    This picture on the table represents my husband and the 
hundreds of thousands of Americans who died painful, premature, 
and preventable deaths.
    Emily and I are not alone. Each day more than 100 Americans 
die from mesothelioma, lung, ovarian, laryngeal cancers, 
asbestosis, and other pleural disease, yet imports continue. 
Alarmingly, my new research, which you will all have on the 
back table, has revealed that since the EPA tried to ban 
asbestos and it was overturned in 1991, one million Americans--
one million Americans--have died from these preventable 
diseases.
    This snapshot is only a small piece of time, because you 
can imagine over the past 100 years how many Americans have 
died from these preventable diseases.
    Think for just one moment not about our family, about the 
millions of families that have love lost--loved and lost loved 
ones due to the chemical while our government has done nothing. 
Thirty years after EPA, actually 30 years after EPA tried to 
ban asbestos the facts remain irrefutable. All forms of 
asbestos, including chrysotile, are a known human carcinogen. 
There is no safe or controlled use of asbestos.
    Knowing the unreasonable risk, we have allowed over 300,000 
metric tons to be imported and used in the past 28 years. Now, 
companies recognizing the risk decades ago have actually 
transitioned to safer and economical substitutes. However, the 
chlor-alkali industry has refused. Today, Olin Corporation, 
Occidental Chemical Corporation, Axial/Westlake Corporation are 
still importing, using, and lobbying, lobbying for an 
exemption. To be clear, they use chrysotile asbestos diaphragms 
to produce chlorine and caustic soda, but there are three 
methods. This is just one.
    Our research reveals only 1 percent of their chlorine 
production is for drinking water, the rest is for industrial 
chlorine uses. Last year this industry imported 750 metric tons 
of raw asbestos from Russia and Brazil. Seven hundred and fifty 
metric tons. Now, there are numerous asbestos exposure pathways 
from mining, transporting between port to plant, within the 
plant, and disposal. That is a massive amount of opportunity. 
It is beyond a glovebox.
    EPA risk evaluations are excluding the effects of asbestos 
that we find, the legacy in our homes, schools, and workplaces. 
And let me tell you, an impurity 1 percent by weight is not 
protective. If you have a 100-pound bag of play sand, could you 
really have a pound of asbestos and have it be legal? As a 
widow, I say no.
    They are also excluding various cancers, which you heard 
the committee describe: ovarian, laryngeal, asbestosis, other 
diseases. During the past decade since I have been coming to 
Washington--actually it is 15 years--asbestos has been the 
poster child for meaningful TSCA reform. And I agree with 
Ranking Member Shimkus: I hate asbestos. And the EPA has failed 
to do their job. We can't wait and hope that EPA with their 
risk evaluation will lead to a ban while the Agency is failing. 
And Congress must expeditiously move this bill forward.
    I look forward to answering your questions. And thank you 
for your leadership.
    [The prepared statement of Ms. Reinstein follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Tonko. Thank you, Ms. Reinstein, for your very 
compelling testimony.
    Ms. Reindel, you are recognized for 5 minutes, please.

                  STATEMENT OF REBECCA REINDEL

    Ms. Reindel. Chairman Tonko, Ranking Member Shimkus and 
members of the committee, I appreciate the opportunity to 
testify today on behalf of the AFL-CIO on this legislation to 
ban asbestos. My full written testimony has been submitted to 
the committee for the record.
    The AFL-CIO is a federation of 55 national and 
international unions. And we represent more than 12.5 million 
union members who work side by side millions of non-unionized 
workers. Over the last four decades, the AFL-CIO and our 
affiliated unions have acted to protect workers from the 
hazards of asbestos exposure through the development and 
implementation of asbestos regulations and legislation. We 
strongly support this Federal legislation to ban asbestos, H.R. 
1603. WE applaud the efforts of Representative Bonamici and 
this committee to champion and guide this legislation in the 
House, and the effort of Senator Merkley to initiate similar 
legislation in the Senate.
    Asbestos is the poster child of the historical failure 
under the original Toxic Substances Control Act: to protect 
people from a chemical known to have serious health effects at 
very low levels of exposure and known to be extremely difficult 
to control over its long lifespan. In the development of the 
2016 bipartisan Frank Lautenberg Act no one doubted its aim to 
fix the law to ban asbestos indefinitely, definitively.
    But we are here today because EPA has not used that new 
authority and responsibility, and we are here to further amend 
that law to finally protect working people and to save lives. 
One of the worst things about asbestos is that most people 
think it is no longer a problem in the United States, when in 
fact it is the most significant and devastating occupational 
health disaster that has lasted over a century in this country. 
Hundreds of thousands have died.
    One of the worst--Sorry. The number of asbestos-related 
deaths that continue today are worst than experts in the 1980s 
projected them to be now, tens of thousands each year. The 
number of mesothelioma cases in 2017 is actually the highest 
number of the data that is pulled since 1999.
    Especially troubling, we are seeing workers under the age 
of 55 with significant levels of asbestos disease and are 
dying. And those are workers who have entered the job market 
after the 1980s and after asbestos regulations were adopted.
    An insulator in Chicago started in the trade in 1993 and 
was screened in 2016. He recently died at the age of 45 with 
elevated levels of asbestos fibers in his lungs.
    The legacy of asbestos, unfortunately, is very much with 
us, and we are passing it on to the next generation. As other 
industrialized countries are realizing the magnitude of these 
continuing exposures and disease from legacy asbestos, the 
asbestos installed 40 to 70 years ago, they are not only 
banning asbestos from commerce, they are also conducting 
national assessments to understand where it is, how much of it 
there is, and they are developing strategic plans to safely 
remove it and dispose of it. But in the United States, we don't 
really know that information.
    And if we don't know, we can't control exposures to it. 
Workers don't know if they are repairing or installing 
something located next to asbestos material. They don't know if 
they are replacing flooring containing asbestos. The last time 
the United States has profiled the scope of the asbestos 
problem was in the 1980s despite its widespread existence 
throughout facilities all over the country, in refineries, in 
powerhouses, in schools, in hospitals, in steel factories, and 
in other structures. That material installed decades ago, is 
now falling apart and being disturbed.
    As asbestos ages and weathers different conditions such as 
moisture, vibration, it deteriorates and it becomes friable 
over time, which puts those working near it at much higher 
risk. The worst occupational exposures tend to be in 
construction, abatement, renovation, routine maintenance work, 
and custodial activities. But because there is no safe level of 
exposure to asbestos, any worker performing activities near 
asbestos is at risk.
    In its 1994 asbestos standard, OSHA recognized and fully 
acknowledged that under the standard workers exposed continued 
to be at significant risk of asbestos disease. Instead of 
banning all uses of asbestos and conducting a full assessment 
to understand the real magnitude and the real impact of the 
problem, EPA recently created a mechanism for the Agency to 
actually approve new uses of asbestos. They have misled the 
public by telling us that they are strengthening regulation of 
asbestos.
    The legislation here today is so important. It bans future 
uses of asbestos without loopholes, and it begins the very 
difficult and critical work of controlling the problem in front 
of us, the deadly consequences of legacy uses. OSHA cannot do 
this. EPA has not done this. We urge the committee and Congress 
to move forward without delay and enact this legislating bill.
    Thank you. I am happy to answer any questions.
    [The prepared statement of Ms. Reindel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Tonko. Ms. Reindel, thank you.
    We now move to Mr. Michael Walls. You are recognized, sir, 
for 5 minutes.

                 STATEMENT OF MICHAEL P. WALLS

    Mr. Walls. Chairman Tonko, Ranking Member Shimkus, and 
members of the subcommittee, good morning. I am Mike Walls, the 
Vice President for Regulatory and Technical Affairs at the 
American Chemistry Council. I was the chemical industry's 
principal technical representative in the discussions that 
resulted in the 2016 amendments to the Toxic Substances Control 
Act. And I am here today to reinforce our industry's commitment 
to full and effective implementation of those amendments.
    Now, the 2016 amendments were a significant bipartisan 
achievement. In those amendments Congress established a process 
to reinforce public confidence in EPA's management and 
assessment of new and existing chemicals. The amendments 
require the Agency to have sufficient information to make an 
affirmative regulatory decision on chemicals in an open and 
transparent way. And a key element of those amendments was a 
requirement that EPA systematically evaluate the risks of high 
priority substances and regulate their uses when necessary, 
subject to strict deadlines for action.
    Now, you have already heard that in December 2016, EPA 
identified asbestos as one of the first ten substances 
undergoing evaluation. You know that the assessment is supposed 
to come forward for public comment later this year, that EPA 
expects to meet its deadline in December of this year. Under 
the terms of the 2016 amendments, EPA must take into account 
both the hazards and the risks of exposure under specific 
conditions of use.
    EPA cannot consider costs and benefits in the evaluation of 
those risks. But once it identifies unreasonable risk, EPA must 
then regulate to ensure that any unreasonable risks are managed 
appropriately.
    Now, our industry is committed to effective and efficient 
implementation of the 2016 amendments. In part, that commitment 
is reflected in the fact that ACC member companies provided 
information to EPA specific to the use of asbestos in chlorine 
production. This included information on the transportation, 
use, and disposal information in that condition of use, 
including exposure information. Our companies' use of asbestos 
in the production of chlorine is highly regulated and 
controlled to prevent exposures to humans in the environment.
    This includes a specific National Emissions Standard for 
Hazardous Air Pollutants, or NESHAP, under the Clean Air Act. 
You have already heard today that one-third of total United 
States production of chlorine and sodium hydroxide relies on 
closed-system chrysotile asbestos diaphragms cells. Those cells 
separate chlorine from its co-product sodium hydroxide while 
remaining, while ensuring that those substances are contained 
in the cell.
    Human exposures are prevented by the rigorous use of 
personal protective equipment, as well as appropriate 
engineering controls, routine maintenance, and rigorous 
training. Federal regulations also govern the disposal of spent 
asbestos diaphragms.
    Now, chlorine is essential to ensuring access to safe 
drinking water for millions of American families. It also 
enables life-saving healthcare and pharmaceutical products, 
energy resources like solar panels and wind turbines, and much 
more. A blanket ban that includes the chlor-alkali industry's 
use of asbestos would have, in our view, a significant impact 
on the supply of chlorine. That in turn will jeopardize public 
health and increase prices for a wide range of vital consumer 
and industrial goods.
    I want to be absolutely clear that ACC believes that EPA's 
ongoing risk evaluation of asbestos properly covers the use of 
asbestos in chlorine production. In our view, that use is and 
will continue to be appropriately controlled to ensure that it 
does not pose an unreasonable risk.
    Now, in 1989, EPA recognized that a ban on the use of 
asbestos in chlorine production was not appropriate. ACC 
opposes H.R. 1603 because it would set an unfortunate precedent 
for legislating risk management actions on substances subject 
to TSCA. We believe that EPA must be given the chance to 
complete its ongoing assessment. We believe that the system 
Congress approved in 2016 must be given a chance to work.
    Imposition of a blanket ban on asbestos use without the 
benefit of EPA's risk evaluation, and without the benefit of 
information on appropriate risk management measures undermines 
the process that was the basis for Congress's bipartisan 
agreement in 2016.
    Thank you very much for the opportunity to provide this 
testimony. I look forward to your questions.
    [The prepared statement of Mr. Walls follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Tonko. Thank you, Mr. Walls.
    And, finally, we will hear from Dr. Monforton. You are 
recognized for 5 minutes, please.

                 STATEMENT OF CELESTE MONFORTON

    Dr. Monforton. Thank you, Chairman Tonko, Ranking Member 
Shimkus, and members of the subcommittee. I am Dr. Celeste 
Monforton. I am a lecturer at Texas State University. I have a 
doctorate and a master's in public health, and I have worked in 
this field for nearly three decades, including at OSHA, and 
MSHA, and the Department of Labor. I am testifying today on 
behalf of the American Public Health Association. And I 
currently serve on the association's Action Board.
    I ask my written statement and attachments be included in 
the record.
    APHA's mission is to improve the health of the public and 
to achieve equity in health status. Accomplishing these goals 
requires focus and attention on numerous social determinants of 
health, including exposure to toxic substances in the outdoors, 
in schools, in homes, and in workplaces.
    A decade ago APHA called for a complete ban on asbestos. We 
have remained steadfast in this position, and it is the reason 
that APHA strongly supports H.R. 1603. There is no debate in 
the public health community that asbestos is a carcinogen and 
there is no safe level of exposure.
    The comprehensive ban required under 1603 is on very strong 
scientific foundation. APHA applauded passage of the Lautenberg 
Chemical Safety Act and the decision by the Obama 
administration to chose asbestos as one of the first ten 
chemicals subject to risk evaluation. EPA's recent decisions, 
however, call into question the current Administration's 
willingness and ability to address the threat that asbestos 
poses to the public health.
    In its Scoping Document and Problem Formulation EPA has 
essentially put a stake in the ground about what they will 
consider in their risk evaluation. These decisions include:
    Excluding cancers that are associated with asbestos 
exposure, including of the larynx, pharynx, ovaries, as well as 
pleural disease;
    Excluding the exposure to asbestos-containing materials in 
the buildings;
    Excluding exposure to asbestos in air, soil and water, 
including disposal of asbestos-containing waste.
    With respect to the reporting requirements and the analysis 
that the bill calls for with EPA, Labor Department, and HHS it 
is critically important because we cannot prevent asbestos-
related cancers if we don't have accurate data on where it is 
located, what condition it is in, how it is handled and 
disposed, and how many people are exposed to it.
    We also don't know who is importing asbestos, where it is 
being shipped, and where it ends up. H.R. 1603 will help to 
fill the significant information gap by requiring EPA and other 
agencies to assemble data to answer these questions. The bill 
embraces the fundamental principle of the public's right to 
know and will provide the information necessary to develop 
protective risk management plans.
    Asbestos is a potent carcinogen. More than 60 countries 
have banned asbestos because they recognize its grave risk to 
public health. It is long past the United States to do the 
same. Cancer takes a physical and emotional toll on a patient 
and their family. Cancer has economic consequences, more than 
$80 billion in direct medical care costs along. Add to that the 
lost time from school and work, productivity, travel, and all 
the other expenses that go along with having a serious illness. 
Preventing cancer makes economic sense.
    On a personal note, at age 49 I developed cancer that had 
already spread to my lymph nodes. I lost more than a year of my 
life undergoing treatment. Cancer is scary. Like many cancer 
patients I wondered, how could this have been prevented? For so 
many cancers we don't know the answer, we don't know the cause. 
But for asbestos-related cancer, for mesothelioma that killed 
Alan Reinstein, it is lethal. And we know exactly how to 
prevent asbestos-related cancers: eliminating exposure to 
asbestos. And that doesn't mean continuing to import it and 
claims that it can be handled safely.
    It is for this reason that APHA supports strong and 
comprehensive legislation that will ban asbestos, address the 
risks for the millions of metric tons of asbestos that is in 
buildings, homes, schools, and other structures, and assures 
the public's right to know. H.R. 1603 accomplishes these goals, 
and APHA wholeheartedly supports it.
    Thank you.
    [The prepared statement of Dr. Monforton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Tonko. Thank you, Dr. Monforton. And thank you to all 
of our panelists for your presentations.
    That concludes our witnesses' opening statements for our 
second panel. We now move to member questions. And I will 
recognize myself for 5 minutes for questions.
    Mr. Walls, I asked this of Administrator Dunn, but I 
certainly want to get your thoughts. Over 60 other countries 
have managed to ban asbestos. I believe they are still able to 
treat their water and find safer alternatives for many other 
uses. Do you see any reason why the United States could not be 
able to transition away from asbestos-containing materials?
    Mr. Walls. If your question, Mr. Tonko, is with respect to 
the chlor-alkali's industry's transition away from asbestos, we 
certainly know that there are alternatives to asbestos 
diaphragm cells. But there are no drop-in replacements for 
those uses.
    We are talking about a transition time that is significant, 
that would cost hundreds of millions of dollars. And it is true 
that in other countries they use other technologies. We even 
use some of those alternative technologies here in the United 
States, but it is not a simple matter of dropping in an 
alternative, switching the plant back on, and being able to 
produce.
    Under the bill as it has been presented, it imposes an 
immediate one-year ban--an immediate ban one year after 
enactment on all uses of asbestos. That would essentially 
create a significant shortage of chlorine in the United States 
market. It would eliminate 36 percent of United States chlorine 
in the market. The industry cannot respond in any time frame 
like that.
    Mr. Tonko. What would be a reasonable time frame by which 
to respond?
    Mr. Walls. I think it would depend on the particular 
facility in question, Mr. Tonko. When you are talking, you 
know, planning, the engineering, permitting, construction, 
testing, you know, before you start it, before you can start up 
a facility safely, et cetera, it would be a significant number 
of years.
    Mr. Tonko. I want to ask Dr. Monforton and the other two 
witnesses if they have thoughts on alternatives?
    Ms. Monforton. We do know that other countries have used 
alternatives. I actually have, I think, in my testimony 
information about one of 75 plants, only one of 75 plants in 
the European Union use chlorine in their--or use asbestos 
diaphragms in their chlorine production. Japan has banned 
asbestos, France, in specifically in the chlor-alkali industry.
    So it is obviously something we can do.
    And from the Public Health Association's position, and we 
certainly know how important clean drinking water is, and that 
chlorine is used in it, and we need chlorine as part of 
residual at the end of the process but that that can be done 
without using asbestos diaphragms.
    Mr. Tonko. Ms. Reinstein and Ms. Reindel, any thoughts on 
alternatives and perhaps how effectively and quickly others 
have moved----
    Ms. Reinstein. Thank you, Chairman Tonko.
    Mr. Tonko [continuing]. To those alternatives?
    Ms. Reinstein. I would like to respond to that on two 
points. The chlor-alkali industry has had 30 years since they 
got an exemption to embrace new technology and follow Europe to 
use membranes. And, obviously, mercury has been phased out.
    Other countries can do it. I was recently on a call, and I 
don't want to name the actual chlor-alkali producer, they said 
they can make a transition in five years. Other countries have 
done it within three. Why not start? USGS states that the 
chlor-alkali industry is stockpiling asbestos now. Seven 
hundred and fifty metric tons in one year is outrageous.
    Mr. Tonko. Ms. Reindel?
    Ms. Reindel. I don't have a comment on that.
    Mr. Tonko. Are you recommending they should start now, Ms. 
Reinstein?
    Ms. Reinstein. I think for the health of their workers, 
their industry, and the nation it would be unconscionable. I 
have to say as I flew in last night, I was shocked to read Mr. 
Walls' testimony, they actually--they wrote--they oppose H.R. 
1603. So, we are sitting at a table having a conversation 
knowing that ACC goes flat out to say they oppose banning 
asbestos, or the bill as written.
    Mr. Tonko. Yes?
    Mr. Walls. Mr. Tonko, I think I need a chance to respond to 
that.
    We have been very clear that ACC's opposition to H.R. 1603 
is exactly focused on the chlor-alkali's industry's--the impact 
on the chlor-alkali industry and the supply of chlorine in this 
nation. We certainly are not opposing a ban for all other uses 
of asbestos. And I just want to make that clear.
    Mr. Tonko. Well, I heard the hundreds of millions that it 
would cost, and I also heard the billions it will cost for 
those who have been impacted by illness.
    I have used all my time, so I will now yield to the leading 
Republican of the subcommittee, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    For Mr. Walls, and it is on the same topic of chlorine and 
the issues. My understanding is that the diaphragm production 
technology accounts for 50 percent of all chlorine production 
in the United States, and that 72 percent of that diaphragm 
production technology comes from asbestos diaphragms.
    Is that correct, 36 percent of all chlorine production in 
the United States would need to be replaced if this bill 
becomes law?
    Mr. Walls. Yes.
    Mr. Shimkus. What are the practical effects in the short 
term from this law?
    Mr. Walls. Well, I think the most significant effects would 
be a ban on asbestos would eliminate 36 percent of the volume 
of chlorine in the United States market in the short term. 
Because chlorine is not traded because of its properties, et 
cetera, it is not--we don't ship chlorine across the ocean, for 
example, there are no opportunities to meet the reduction in 
volume by imports. Production of chlorine derivatives would 
also be reduced, and the imports of those derivatives would be 
increased.
    The United States is also a net exporter of caustic soda, 
sodium hydroxide, which is the co-product of chlorine. Every 
time you make a ton of chlorine you get 1.1 tons of sodium 
hydroxide. Eliminating caustic production will eliminate the 
trade surplus we currently have in that good and encourage more 
imports of it.
    So, we have done a study. We believe that the direct 
economic impacts would be a total of direct, indirect, and 
payroll-induced effects of 155,000 jobs, $9.7 billion in 
payroll, and $63 billion in United States economic output.
    Mr. Shimkus. The non-asbestos diaphragm technology that 
could be more widely deployed to replace it is comprised of 
four polymer fibers or commonly known as PFAS compound; is that 
correct?
    Mr. Walls. Yes. That is one of the alternatives.
    Mr. Shimkus. And we will be talking about PFAS next week I 
guess; right?
    If non-asbestos diaphragm technology isn't used as a 
replacement, there is a mercury-cell based technology, and a 
membrane cell technology. Are these drop-in replacements?
    Mr. Walls. No. Mercury cell technology is being phased out. 
Very little, if any, of United States production is produced 
with mercury cells.
    There is no currently available drop-in technology for 
asbestos diaphragms.
    Mr. Shimkus. And I was talking to some colleagues on this, 
it is not like replacing, we are not talking, like, replacing a 
coffee filter? I mean, we are----
    Mr. Walls. No. These are typically--so, just to explain the 
process, from the time this imported asbestos arrives in a 
container. That container is sealed, the asbestos within it is 
packaged in roughly 40-pound plastic packages put on a pallet. 
The pallet is wrapped in very heavy-duty plastic. The container 
is sealed and cannot be opened until it is at the facility and 
under conditions in which the expose--potential exposures to 
asbestos can be controlled.
    The asbestos is wet deposited with complete protective 
equipment for the workers in an environment where exposures to 
the air are minimized.
    So, what happened is these--this asbestos is wet deposited 
onto a frame. And when it is dried, before it is put into the--
to the cell itself, this is essentially non-friable asbestos. 
It is in a matrix and bound in that matrix.
    Mr. Shimkus. Going back just to the 36 percent, do Canada 
and Mexico produce enough chlorine to replace the 36 percent 
that could get lost if this became an immediate law and there 
would be an immediate ban?
    Mr. Walls. No, Canada and Mexico's chlorine production are 
typically used for their domestic purposes. They don't have the 
excess supplies to be able to replace that in the United States 
market.
    Mr. Shimkus. If not these countries, where else might we 
seek importation from?
    Mr. Walls. Again, in elemental chlorine you would not see 
imports. You would see an increase in chlorine derivative, 
imports of chlorine derivatives. And those could come from any 
country. China has ramped up product--China, among others, has 
ramped up production of those products.
    Mr. Shimkus. Well, thank you. This is a tough committee to 
be on. We are trying to balance public health. And we get it 
right every now and then. Sometimes we don't, and sometimes in 
litigation and lawsuits, like this issue, took the work and 
unraveled it again.
    I would encourage those following this hearing to try to 
get this out of our commercial use. And the industries that are 
part of the ACC, which I am a pretty good fan of, as everyone 
knows, that they look for other opportunities that would make 
our lives a lot easier.
    And, Emily, you have a very brave mom. And thank you for 
your service, too.
    Mr. Tonko. The gentleman yields back.
    I believe Dr. Monforton wanted to respond to something she 
had heard?
    Ms. Monforton. Yes. So, Ranking Member Shimkus, I really 
appreciate you saying that we really want to get it out. And 
maybe we can figure out what the economic impact would be and 
what the timeline would be. But I think that really not having 
asbestos imported to our country is very, very important.
    With respect to asbestos in the chlor-alkali industry being 
handled safely, I think we have to think about where the 
asbestos comes from. You know, coming from Brazil, coming from 
Russia, we should have no confidence that the workers that are 
mining, and milling, and processing, and shipping are being 
protected from asbestos. And United States companies have a 
responsibility that if they are going to be importing a potent 
carcinogen, you know, they can't just dismiss those exposures.
    And then, in addition, you know, one can set up all kinds 
of policies and procedures to try to ensure that the asbestos, 
you know, doesn't--the bags don't break, or when you are 
inserting it into the closed system. But there are so any 
opportunities for the exposures to occur. And on the hierarchy 
of controls, the very best way to protect health is to 
eliminate the exposure.
    Mr. Tonko. Thank you so much.
    We now recognize the gentleman from Missouri, Mr. Long, for 
5 minutes, please.
    Mr. Long. Thank you, Mr. Chairman.
    Ms. Monforton is it?
    Ms. Monforton. Yes.
    Mr. Long. You don't have to answer this if you don't want 
to, but you said that you had a cancer. Can you share what type 
that was? And like I said, if you don't want to, that is fine.
    Ms. Monforton. No, I am happy to. I had Stage 3 breast 
cancer.
    Mr. Long. OK.
    Ms. Monforton. And I have no risk factors in my family. 
Very healthy. I don't have any, you know, I am not overweight, 
I exercise. All the only things they can tell us to do to 
prevent cancer, but nothing about exposure.
    And when we have exposure to carcinogens and we know what 
they do to people, you know, that should be the low hanging 
fruit for us.
    Mr. Long. Right, right. Cancer is near and dear to my 
heart. Our youngest daughter had lymphoma and she is fully 
recovered five years later here after all the chemo and 
everything. I do a lot of work with St. Jude Children's 
Research Hospital.
    Ms. Monforton. Excellent.
    Mr. Long. So I am just always, you know, a little curious 
as to, you know, what types and what is causing what.
    So, we had an earlier meeting today with Francis Collins of 
NIH. And that is like, you know, sitting down with the master.
    Ms. Monforton. Brilliant, yes. Brilliant.
    Mr. Long. So, yes, yes. So, but anyway, thank you.
    Mr. Walls, Mr. Shimkus was asking you kind of a line of 
questions I was interested in. I mean, it used to be illegal to 
import LNG--I mean to export LNG, liquified natural gas, out of 
this country. There was a law again it. We couldn't do it. This 
committee fixed that a couple years ago. We are able to export.
    You say we don't import chlorine. Is it--is there not a 
demand for it? I mean, if there was, I mean, if we quit 
manufacturing could we not import chlorine?
    Mr. Walls. We could. But because of the properties inherent 
in chlorine and the method of transportation, the logical 
export countries of origin for chlorine would be Canada and 
Mexico. And they don't have the capacity to meet the excess, 
what would then be the diminished United States demand.
    Mr. Long. I just got back from a trip with the Agricultural 
Committee to Brazil. And they didn't have the capacity to 
produce soybeans that China wanted. But guess what, they are 
ramping up. So I was just curious if, you know, there was a 
market from Canada and Mexico for chlorine----
    Mr. Walls. Right.
    Mr. Long [continuing]. If they would not ramp up and be 
able to?
    Mr. Walls. I think they would attempt to. But, again, I 
think the properties of chlorine are such that you wouldn't see 
elemental chlorine imported, you would see products made from 
chlorine being the principal subject of increased trade.
    Mr. Long. You are getting above my pay grade now.
    Mr. Walls. We wouldn't, in other words, we wouldn't be 
making those products here in the United States. They would be 
manufactured elsewhere and imported into the United States
    Mr. Long. H.R. 16--Mr. Walls, sticking with you there--H.R. 
1603 requires anyone who in the three years prior to enactment 
and one year after it manufactured, imported, processed or 
distributed even an incidental amount of asbestos to report 
this to the EPA. How do you quantify an incidental amount of 
asbestos? And how likely is it that all entities subjected to 
the requirements can maintain records to show the amount of 
asbestos used or produced so they can accurately report it? 
Again, they have to go back three years.
    Mr. Walls. Well, Mr. Long, I would assume that EPA would 
set that, would set a standard. I think we heard testimony from 
Ms. Dunn before on what the current EPA limit is.
    My concern would be the reach-back for three years. I don't 
believe that companies or establishments across the country are 
keeping those records. I think it was noted earlier that even 
potting soil would be subject to the reporting requirements of 
this bill. I am not sure that every garden shop in America has 
been keeping records on trace amounts of asbestos for the last 
three years and would be prepared to report it to EPA.
    Mr. Long. OK. As far as the bill requires the reports be 
released to the public, are there any concerns about 
confidential business information or personal things being 
disclosed through that process?
    Mr. Walls. Yes, perhaps. And it is an uncertainty raised by 
the drafting of the bill. The bill amends TSCA, which does 
contain strong confidential business information protections. 
And it is not clear whether those provisions would be 
overridden by this bill.
    There is a simple legal principle that legislation later in 
time trumps the earlier in time statute, so we would have to 
have a better understanding of what the intention and impact 
would be.
    Mr. Long. OK. And I just want to thank all of you 
individually for being here today and testifying, and Emily. 
And it is, you know, things like this are just hard to deal 
with. And any time someone loses their life to whatever it is 
that was preventable is, you know, not, not acceptable.
    I yield back.
    Ms. Blunt Rochester [presiding]. I would like to recognize 
myself for 5 minutes. And I want to focus on Section 3 of the 
bill because I think it is so important.
    We heard from EPA on the first panel that they are focusing 
their attention on ongoing uses of asbestos and excluding so-
called legacy asbestos from their consideration. We should ban 
ongoing uses of asbestos, but we must also do more to address 
the toxic legacy of asbestos still installed in buildings 
across the country.
    And I am going to start my questioning with Ms. Reindel. 
How are the members, how are your members impacted by so-called 
legacy asbestos, the asbestos that was already installed?
    Ms. Reindel. Thank you for the question.
    We have a variety of members, not just our members and also 
other workers who work alongside of our members, ranges from, I 
mean it is really--I mean workers who are working near 
asbestos. The insulators' union did a report recently out of 
Chicago. They have an early screening, lung cancer screening 
protection program. And they reported that about 50 percent of 
workers who started work in 1980s or later are showing up with 
asbestos-related pleural disease.
    These members are, you know, they are the ones putting up 
insulation, working near existing insulation. So even though 
the products used now might not have asbestos in them, they are 
working near asbestos that is deteriorating, that is getting 
wet, that is falling apart, that is crumbling, it is falling on 
plant floors. You are seeing this in schools. You are seeing 
this in demolition of buildings.
    There have been reports from some of our teachers' unions 
that in schools, you know, buffing and polishing asbestos-
containing floors disrupts asbestos. Any kind of maintenance 
work, kids playing basketball in a gymnasium rattles it.
    So, when you have, when you have asbestos that is 50 years 
old it is going to start falling apart. The stuff doesn't last 
forever, and it exposes a lot of workers.
    Ms. Blunt Rochester. And, you know, under Section 3, EPA 
would have 18 months to prepare and submit a congressional 
support addressing the presence of asbestos in residential, 
commercial, industrial, public, and school buildings, along 
with an assessment of the human health risks from that 
asbestos. How would this report help your members?
    Ms. Reindel. Yes, this report is necessary. There has been 
no profile of where asbestos is and its conditions since the 
1980s. We don't know--we know what asbestos does to people, and 
we know how people are being exposed roughly. But we don't know 
where it is in order to do anything about it.
    We need a complete assessment in order to actually address 
the problem, in order to assess the risks and development 
recommendations as to what we can actually do about that. And 
those recommendations can include a variety of things, but that 
is something that report would have to come out with.
    Ms. Blunt Rochester. And, Ms. Reinstein, first I send my 
heart to you. I also lost my husband, and I know coming to 
Congress has given me my joy and my purpose back, so I thank 
you for what you are doing for the American people. And maybe 
you could spend a moment talking about just the impact on 
families and on your husband.
    Ms. Reinstein. I am sorry for your loss, too.
    When I speak for myself, I really speak for the hundreds of 
thousands of others. For those of us who have buried, cared 
for, buried a loved one it is a measurable pain. We look at 
calendars, we look at empty chairs, we look at father-daughter 
dances, and those have changed forever.
    I feel that 15 years of my work in Congress we have made 
significant progress. You should be so proud, this is the first 
legislative ban asbestos hearing I have ever attended in the 
House. And I think it fuels our fight, like your member from 
Missouri said, but most importantly I guarantee you there are 
people around the world watching this hearing today and 
applauding you as House members for moving this forward.
    Ms. Blunt Rochester. Thank you.
    Ms. Reinstein. So, there is no rewind button, but we can go 
forward together. I hope it is a bipartisan movement forward. 
We need that desperately.
    Ms. Blunt Rochester. Thank you so much for sharing that. 
Thank you so much.
    And I am going to close with a question to Dr. Monforton 
about just the public health aspect of this and the impact?
    Ms. Monforton. So, the key principle of public health is 
protecting people's health. And having information about what 
those exposures are and knowing how to prevent them is what our 
work is about in really savings lives.
    Ms. Blunt Rochester. Thank you so much. And now I would 
like to thank all of our witnesses for joining us at today's 
historic hearing.
    I remind Members that pursuant to committee rules they have 
ten business days to submit additional questions for the record 
to be answered by our witnesses. I ask each witness to respond 
promptly to any such questions that you may receive.
    And at this time the subcommittee--and at this time I 
request unanimous consent to enter the following documents into 
the record. These are the following documents: A statement of 
support from Representative Bonamici, one of the lead sponsors 
of H.R. 1603; a letter of support from the International 
Association of Firefighters; New York Times article published 
this morning titled ``EPA Leaders Disregard Agency's Experts in 
Issuing Asbestos Rule Memos Show''; A New York Times article 
published in August 2018, titled ``EPA Staff Objected to 
Agency's New Rules on Asbestos Use Internal Emails Show;'' A 
letter from the National Association of Home Builders; A letter 
from the Chlorine Institute; A letter from the American 
Alliance for Innovation; A letter from the National Rural Water 
Association; A letter from the National Demolition Association; 
A letter from the American Waterworks Association.
    Without objection, so ordered.
    [Material submitted for inclusion in the record follows:]
    Ms. Blunt Rochester. OK, and let's see, and at this time 
the subcommittee is adjourned.
    [Whereupon, at 12:37 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    
 
    

                                 <all>
</pre></body></html>
